<html>
<title> - NOMINATION OF JAMES M. BYRNE TO BE DEPUTY SECRETARY, U.S. DEPARTMENT OF VETERANS AFFAIRS</title>
<body><pre>[Senate Hearing 116-258]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 116-258

NOMINATION OF JAMES M. BYRNE TO BE DEPUTY SECRETARY, U.S. DEPARTMENT OF 
                            VETERANS AFFAIRS

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON VETERANS' AFFAIRS
                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION
                               __________

                              MAY 16, 2019
                               __________

       Printed for the use of the Committee on Veterans' Affairs
       
       

                  [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]       
       


        Available via the World Wide Web: http://www.govinfo.gov
                    
                    
                              ___________

                    U.S. GOVERNMENT PUBLISHING OFFICE
                    
41-279 PDF                 WASHINGTON : 2020                      
                    
                                        
                                                                               
                    COMMITTEE ON VETERANS' AFFAIRS

                   Johnny Isakson, Georgia, Chairman
Jerry Moran, Kansas                  Jon Tester, Montana, Ranking 
John Boozman, Arkansas                   Member
Bill Cassidy, Louisiana              Patty Murray, Washington
Mike Rounds, South Dakota            Bernard Sanders, (I) Vermont
Thom Tillis, North Carolina          Sherrod Brown, Ohio
Dan Sullivan, Alaska                 Richard Blumenthal, Connecticut
Marsha Blackburn, Tennessee          Mazie K. Hirono, Hawaii
Kevin Cramer, North Dakota           Joe Manchin III, West Virginia
                                     Kyrsten Sinema, Arizona
                       Adam Reece, Staff Director
                Tony McClain, Democratic Staff Director



                            C O N T E N T S

                              ----------                              

                              May 16, 2019
                                SENATORS

                                                                   Page
Isakson, Hon. Johnny, Chairman, U.S. Senator from Georgia........     3
Tester, Hon. Jon, Ranking Member, U.S. Senator from Montana......     1
Moran, Hon. Jerry, U.S. Senator from Kansas......................    34
Blackburn, Hon. Marsha, U.S. Senator from Tennessee..............    37
Blumenthal, Hon. Richard, U.S. Senator from Connecticut..........    39
Sullivan, Hon. Dan, U.S. Senator from Alaska.....................    40
Brown, Hon. Sherrod, U.S. Senator from Ohio......................    43
Tillis, Hon. Thom, U.S. Senator from North Carolina..............    46
Boozman, Hon. John, U.S. Senator from Arkansas...................    49

                               WITNESSES

Byrne, James M., nominee to be Deputy Secretary, U.S. Department 
  of Veterans Affairs............................................     4
    Prepared statement...........................................     6
    Response to prehearing questions submitted by Hon. Jon Tester     9
    Posthearing questions submitted by Hon. Sherrod Brown........    15
    Questionnaire for Presidential nominees......................    16
    Letter from the Office of Government Ethics..................    30
    Letter from the nominee to the Office of General Counsel, 
      U.S. Department of Veterans Affairs........................    31

 
NOMINATION OF JAMES M. BYRNE TO BE DEPUTY SECRETARY, U.S. DEPARTMENT OF 
                            VETERANS AFFAIRS

                              ----------                              


                         THURSDAY, MAY 16, 2019

                                       U.S. Senate,
                            Committee on Veterans' Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10 a.m., in room 
418, Russell Senate Office Building, Hon. Johnny Isakson, 
Chairman of the Committee, presiding.
    Present: Senators Isakson, Moran, Boozman, Cassidy, Rounds, 
Tillis, Sullivan, Blackburn, Tester, Brown, Blumenthal, and 
Sinema.

    Chairman Isakson. I call this meeting of the Senate 
Veterans' Affairs Committee to order. Welcome everyone who is 
here for the proceedings this morning. We will go right into 
the opening statements. My able Ranking Member is not very able 
today. He is disabled by a cold or something. So, I am going to 
let him go first because he wants to excuse himself after that. 
I will try and make it without him. It will be tough, but we 
will do the best we can.

  OPENING STATEMENT OF HON. JON TESTER, RANKING MEMBER, U.S. 
                      SENATOR FROM MONTANA

    Senator Tester. That will be just fine. Thank you, Mr. 
Chairman. Yeah, I do not--normally I do not look too good; 
today not only do I not look too good, I do not feel too good 
either. I want to thank you, Mr. Chairman, and I want to thank 
you, Mr. Byrne. I appreciate your willingness to perform the 
duties as the Deputy on an interim basis since last summer. Our 
job today is to determine whether you are up to the task of 
serving as the permanent number 2 at VA.
    Given that you are already performing most of the duties, 
and have served as general counsel, my expectations for you 
during this hearing will be different. You come here not only 
as a newly nominated individual but as representative of the 
Department who has had a key role in the development and roll-
out of a number of significant programs. I need to know whether 
you have the proper temperament and judgment and will do what 
is best for our veterans.
    For example, you served as general counsel when the 
Secretary was contemplating whether to recommend that Justice 
Department challenge the Blue Water Navy case on VA's behalf. 
Earlier this week the House of Representatives unanimously 
passed--that is 410-0--legislation that is in keeping with the 
recent court decision.
    You served as general counsel in June 2018, when the VA 
picked a needless fight with the Office of Inspection General, 
denying basic information to the Office entrusted with 
independent oversight. The following week this body unanimously 
approved an amendment to the fiscal year 2019 VA Appropriations 
Bill to prevent the denial of such information.
    After all, despite what VA leadership may have thought had 
been advised, it was not and is not above the law; and now, in 
just three short weeks, be able to align with its 
implementation of the MISSION Act. I want to know what your 
role has been in implementing that law and whether you believe 
the VA is going to be ready to rock and roll on June 6.
    Your testimony points to a recognition of the human 
resources apparatus at the VA that needs to be modernized, so I 
know that you understand the VA has more work to do to improve 
the processes involved in hiring and related tax. However, the 
inability of the Department to address recruitment and 
retention issues in places like my home State of Montana, 
coupled with the Department's gutting of the agreement with 
Labor that has been in place since 2011, gives me concern, to 
say the least. VA management absolutely needs to get along with 
its employees. They are our most important asset.
    Unfortunately, VA's unwillingness to work well with others 
does not end with its workforce. We continue to hear concerns 
that the VSOs are not being asked for input on important 
decisions made at the VA. We hear that the VA does not want to 
sit on the same witness panel for congressional hearings as the 
IG office.
    And, when all eight of the VA-authorizers and appropriators 
from both parties and both chambers send a letter to the VA 
asking for more timely, accurate, and consistent information, 
VA countered with--said that it was the most transparent agency 
anyone has ever seen. I question that. The VA simply cannot 
continue treating its partners as adversaries--as adversaries, 
as the key stakeholders and bystanders.
    Yesterday we found out that a lawsuit had been filed in 
which you are a party of interest. I believe that you are--you 
were unaware of this lawsuit until Tuesday night, and I 
appreciate you being very forthcoming since that time. In my 
view, that lawsuit really boils down to the fact that you 
refuted an investigation that was carried out by the IG, 
whether or not you appropriately decided that particular action 
lends itself to whether you have good judgment.
    But, to the larger point, the trend from this agency to 
undercut everyone charged with oversight of this agency, 
whether it is Congress or the IG office, needs to stop and 
needs to stop now. There are too many critical issues that 
require all of us to work together, whether it is the epidemic 
of suicides that ends the lives of way too many veterans every 
day and the ongoing struggle of veterans, particularly rural 
and women veterans, to access the care they need, or the IT 
setbacks that have hindered or delayed critical initiatives. I 
need to know that you are committed to the priorities such as 
these and that, at the end of the day, you have the temperament 
and judgment to do this job.
    Thank you again for your willingness to serve on behalf of 
our Nation's veterans and their families.
    In closing I would say this. The IG is one of the tools 
that we use to hold you accountable. If we do not support the 
IG in the work that they do I think we are making a big 
mistake, whether it is IG for the VA or any other agency. So, I 
would appreciate if Members on both sides had adequate time to 
review Mr. Byrne's qualifications and potentially follow up 
this hearing with additional meetings--not you, necessarily, 
Mr. Chairman, but if I have to call him, or, Mr. Byrne, I could 
do that. We could get it out. I do not want to extend this 
thing, but I just want to make sure we do our due diligence.
    Johnny, thank you very, very much for letting me go first 
so I can leave and crash.
    Chairman Isakson. Well, I want you to leave and crash and 
get well. That is what I want.
    Senator Tester. Thanks, buddy.
    Chairman Isakson. We are not a good Committee without you 
here and I appreciate your being here so promptly. I will just 
say this as you leave, I associated myself with every remark 
that Jon made. We, as a team, want the VA to be the best it can 
be. We think the VA is moving in the right direction in many 
areas. We think your nomination is a good one. We want to make 
sure we continue on that path, that we do not backslide, and we 
can prove to you--we have got a long way to go, but we have 
come a long way in the last few months.
    So, Jon, thank you for your testimony, and thank you for 
not using this lawsuit as an excuse for us to hold up this 
hearing today, which I really appreciate a lot. We have had a 
lot of stonewalling going on in the Senate in the last couple 
of months, over appointments and getting meeting scheduled, but 
Jon has been very helpful in supporting those, which I 
appreciate very much.

   OPENING STATEMENT OF HON. JOHNNY ISAKSON, CHAIRMAN, U.S. 
                      SENATOR FROM GEORGIA

    Chairman Isakson. Mr. Byrne, welcome. You are not a 
stranger to the VA. You are there now. You, like many people, 
have been in an acting position. You are going to stop acting 
soon and be appointed and confirmed, I am sure. The purpose of 
this hearing is to have a hearing on your confirmation and on 
your appointment, to satisfy any questions the Members may 
have.
    Let me say at the outset, so if I do not say it at the end, 
what I have already said and I did not forget it, we will leave 
the record open for, how many, 5 days for any questions any 
Member who is not here wishes to ask, or any additional 
information that wishes to be submitted by them. I would ask 
you to be as prompt as you can in responding to those, because 
it is in our hands to get this meeting called, and once it is 
announced it is for you. The responsibility is on your back to 
get us the information as quickly as possible so we can get 
your confirmation finished as quickly as possible and move 
forward.
    I read your testimony last night and I appreciate very much 
your candor, your supportive nature of the Secretary. I 
particularly appreciate that you have embraced the suicide 
goals that all of us have on the VA Committee and at the VA; 
our number 1 goal is slowing down the rate of suicide and 
eventually, if it is possible, preventing it.
    Whether it is possible or not is something you want to make 
sure you never get in to or say it is not impossible to correct 
because you do not want to do that. We have had a rash 
recently, including in the Atlanta area, of veterans who have 
taken their life either on the property or near the property or 
in proximity to an appointment they have had with the VA, which 
bothers me some, as well.
    We have got to continually review our processes and the 
timeliness of getting a veteran in danger to a professional for 
help and counseling. We have learned that the number 1 failure 
of anybody when someone is at risk for their own life is to not 
get timely counseling from somebody who understands what is 
going on in someone's mind when they are contemplating taking 
their own life.
    I am going to be talking a lot more about that in the 
months ahead, as Chairman, because I think it is the one thing 
we can do. It is a subject nobody wants to talk about. It is 
one of those things that has a stigma to it, but it is 
absolutely something that needs to be done, absolutely 
something that needs to be done quickly, and absolutely needs 
to be something we never give up on trying to find the right 
answers to the questions that are asked of us.
    I am delighted that you are here today. I appreciate your 
prioritization of serving Secretary Wilkie as you have. He is a 
good Secretary. He is a demanding task-maker but he will not 
ask of you any more than he asks of himself, and that is the 
kind of leadership we know we want and have needed in the VA.
    Now the rules require me to swear you in before you make 
your testimony. That way you cannot change it later on, after 
you have made your testimony. So, if you will please raise your 
right hand, Mr. Byrne, and repeat after me.
    Do you solemnly swear or affirm that the testimony you are 
about to give before the Senate Committee on Veterans' Affairs 
will be the truth, the whole truth, and nothing but the truth, 
so help you God?
    Mr. Byrne. I do.
    Chairman Isakson. You may be seated. Thank you.
    I will recognize you for 5 minutes of opening statement 
followed by questions by, it looks like me, but I will try not 
to be too boring and hopefully we will have somebody save you 
from that. But you are welcome and congratulations on your 
nomination.

STATEMENT OF JAMES M. BYRNE, NOMINATED TO BE DEPUTY SECRETARY, 
              U.S. DEPARTMENT OF VETERANS AFFAIRS

    Mr. Byrne. Thank you very much, sir, and if I may, may I 
introduce my family that has joined me today?
    Chairman Isakson. You sure can.
    Mr. Byrne. My wife Becky--my wife of 32 years--joins me 
here today, along with our daughters, Hannah and Gabby. I will 
not call them number 5 and 6, but they are our fifth and sixth 
children. We were just blessed recently with our fifth 
grandchild, James Michael Byrne III.
    Chairman Isakson. Well, Hannah and Gabby are two great 
names, and they have got beautiful smiles too, so we are 
delighted that you are here.
    I learned a long time ago, and have known since I was in 
the service, that when you serve the country in the service or 
in the service of the Congress it is the spouses that come with 
you to serve as well, so thank you for your support of your 
husband.
    Mr. Byrne. Well, good morning, Chairman Isakson. Thank you 
for the opportunity to appear before you. Almost 2 years ago I 
was here as the nominee to be the General Counsel of the 
Department of Veterans Affairs. Today I am asking for your 
support once again as I am humbled and honored to appear as 
President Trump's nominee to be the Deputy Secretary of 
Veterans Affairs.
    You may recall that we are a service-oriented family. My 
father and father-in-law served in the military, as did I, a 
tradition our two sons and our son-in-law have followed. Our 
Army son, Dan, is stationed in Maryland, and our Navy son, 
Mick, is at sea on the USS Alaska, a fleet ballistic nuclear 
submarine on a deterrent patrol out of Kings Bay, GA. Our son-
in-law, Aaron, is a Navy veteran.
    I want to thank the Committee for moving promptly on my 
nomination, as it is important for Mr. Wilkie to have full 
senior leadership team in place given the rapid changes taking 
place at the VA.
    As a U.S. Naval Academy graduate and a full or deployed 
marine infantry officer, I understand first-hand the importance 
of our Nation's commitment to veterans, and I am excited about 
the prospect of continuing to help Mr. Wilkie carry out that 
commitment. Mr. Wilkie has brought stability to the VA's 
Central Office, which has allowed us to make significant 
progress toward modernizing the Department and improving 
service for veterans, and I am proud to have played a role in 
these momentous changes.
    I was delegated the chief operating officer duties of the 
Deputy Secretary 9 months ago, and that makes me operationally 
responsible for the VA's vast network of hospitals and clinics, 
our benefits programs, and our national cemeteries. I have 
provided leadership to our various teams as they implement the 
MISSION Act, work toward electronic health records 
modernization, and set and achieve new customer service goals 
like shorter wait times and improved quality of care. And, 
based on what I have seen so far from our leadership and staff, 
I am very bullish on the VA.
    I am also proud to be part of our effort to prevent veteran 
suicide. Stopping these tragic events is our top clinical 
priority. But, we know the VA cannot do it alone, and that is 
why we are very happy with President Trump's Executive order on 
veteran suicide, which is aimed at providing a nationwide 
response to this problem. Secretary Wilkie will lead a Federal 
Government task force that will recommend ways for private 
companies, academia, nonprofits, and all levels of government 
to work together to identify at-risk veterans and get them the 
help they need.
    I want to use this as an opportunity to praise the 
thousands of VA employees who are doing so many good things to 
further our mission, which is to care for America's heroes who 
have borne the battle. I am amazed with the employees I have 
met at our facilities across the country and the care they take 
with our veterans. From what I have seen, the drumbeat of 
negative news about our workers is a false narrative that goes 
against new surveys that find veterans are very happy with the 
care they receive from us.
    For all these reasons, I am very optimistic about where the 
VA is headed under Secretary Wilkie's leadership, and if 
confirmed I pledge to you, to President Trump, Secretary 
Wilkie, VA employees, and, of course, the veterans we serve to 
continue working as hard as I can to fulfill our mission and 
uphold the oath of office.
    Thank you, sir, and I look forward to your questions.
    [The prepared statement of Mr. Byrne follows:]
    Prepared Statement of Hon. James M. Byrne, Nominee to be Deputy 
             Secretary, U.S. Department of Veterans Affairs
    Good morning Chairman Isakson, Ranking Member Tester, and 
distinguished Members of the Committee. Thank you for the opportunity 
to appear before you. Almost two years ago, I was here as the nominee 
to be the General Counsel of the Department of Veterans Affairs. Thank 
you for your support then, and I hope I can count on your continued 
support, as I am humbled and honored to appear as President Trump's 
nominee to be Deputy Secretary of Veterans Affairs.
    It is a privilege to serve under the leadership of Secretary Robert 
Wilkie, who has turned the VA into a dynamic, responsive, accountable 
organization.
    The VA is undergoing a transformation unlike anything seen since 
General Omar Bradley arranged health care benefits and implemented the 
GI Bill for millions of Veterans after World War II. Virtually every 
corner of this very large department is doing things differently.
    I was delegated the chief operating officer duties of the deputy 
secretary nine months ago, and that makes me operationally responsible 
for the VA's vast network of hospitals and clinics, our benefit 
programs and our national cemeteries.
    That means I have been privileged to play an integral role in the 
fundamental changes taking place across the department. I have provided 
leadership to our various teams as they implement the MISSION Act and 
work toward electronic health record modernization, as they set new 
customer service goals like shorter wait times and improved quality of 
care, and as we strengthen our governance structures.
    As someone who has helped lead the effort to bring about these 
historic changes, I can tell you that the VA is headed in the right 
direction. Secretary Wilkie has brought much-needed stability to the VA 
Central Office, and that stability has brought progress toward a range 
of goals that are supported by both parties.
    I am extremely bullish on the VA. I believe in where we are going, 
and I am frankly very eager to be confirmed so I can continue to help 
the secretary implement these and other important initiatives on behalf 
of our Veterans.
    In my current dual role, I see firsthand the importance of making 
sure Secretary Wilkie has his full senior leadership team in place, so 
I thank you for so quickly moving ahead with this nomination.
    I pledge to you, President Trump, Secretary Wilkie, VA employees 
around the country and our Veterans that I will continue to use my 
leadership role at the VA to uphold the oath of office, and make sure 
the VA continues to evolve to ensure the highest level of service for 
the heroes who sacrificed so much for their country.
    First, and perhaps most importantly, we are focused intently on 
Veteran suicide prevention, which is our top clinical priority. Under 
Secretary Wilkie's leadership, we are doing all we can to reduce the 
number of Veterans who die by suicide, which averages 20 per day.
    The VA's suicide prevention program is guided by the National 
Strategy to Prevent Veteran Suicide. That strategy calls for 
identifying priorities, organizing efforts, and focusing national 
attention and community resources to prevent suicide anywhere an at-
risk Veteran may be found. No single factor is responsible for suicide, 
and the VA takes a whole-health approach that considers both physical 
and mental health, as well as alcohol or substance abuse and life 
events.
    The VA's primary prevention approach aims to stop suicidal behavior 
before it occurs. As a result, every Veteran seeking medical care for 
potential indications for suicide ideation receives a mental health 
screen, and can receive same-day mental health services at every VA 
health care facility. We have given more than 1.5 million mental health 
screenings to Veterans and are caring for nearly 11,000 Veterans deemed 
to be at risk for suicide.
    Our Veterans Crisis Line fields more than 1,700 calls a day, and 
more than 80 of those calls lead to a decision to dispatch emergency 
services. The average wait-time to have a call answered on that line is 
8 seconds, well below the 20 second target set by other crisis 
hotlines.
    VA employees have played an important role in our effort, in many 
cases because they know their patients well and know when something is 
wrong. Since the VA started tracking suicide attempts on our campuses 
in October 2017, our employees have prevented more than 240 of these 
incidents from taking place, a testament to how much they care about 
their patients, and the skill and understanding they have to work with 
Veterans in such a personal capacity.
    But the scope of this problem is far beyond the ability of one 
program or even one agency to solve. Of the 20 Veterans on average who 
die each day from suicide, 14 of them never seek VA care. That's why 
the VA is reaching out to other Federal agencies, and communities 
around the Nation for assistance. We are working with Governors in 
major U.S. cities to help streamline the process for Veterans to access 
local care.
    The VA welcomed President Trump's decision to sign an Executive 
Order in March that calls for government at all levels, the private 
sector and non-government organizations to ensure Veterans get help. 
The President issued a challenge to the Nation to do a better job on 
this critical issue and put Secretary Wilkie in charge of a task force 
aimed at making recommendations on how we can all work together to 
identify at-risk Veterans and treat them, either by the VA or by 
private providers.
    Our renewed focus on suicide prevention is just one of several 
changes happening at the VA. We are on the cusp of implementing the 
MISSION Act, which will put Veterans at the center of their health care 
decisions. Carrying out this law has been among our top priorities 
since President Trump signed it last year, and it's the cornerstone of 
the fundamental changes the VA is making to better serve Veterans.
    The MISSION Act is the culmination of several years of lessons 
learned from the Veterans Choice Act, and we believe the Republicans 
and Democrats who voted for the bill have struck the right balance 
between helping Veterans at the VA and allowing them to find doctors in 
their community.
    Once the law is implemented on June 6, Veterans will be free to 
continue receiving care at the VA but will also be able to seek out 
community care for a range of different reasons. Those reasons include: 
when it would take too long to drive to a VA facility, when the VA 
doesn't provide the care or services required, when a Veteran has a 
medical condition that affects his or her ability to travel, or when 
there is any other compelling reason for the Veteran to seek outside 
treatment.
    Putting Veterans at the center of their healthcare decisions is 
not, as some insist, a step toward privatization. The VA is now 
competitive with most hospitals around the country, and our budget is 
bigger than ever, and the law poses no risk to Veterans who want to 
continue seeking healthcare at the VA.
    We expect the MISSION Act to result in the best of both worlds--a 
VA that works better than ever for its patients, coupled with the 
option of seeking care outside the VA system when the need arises.
    We launched an effort to modernize our electronic health records so 
they are compatible with those at the Department of Defense. Once fully 
implemented, providers will be able to see in one place the entire 
health history of our Veterans, and more effectively give them the care 
they need. And while this is a project that has posed a challenge to 
implement in years past, the Trump administration is on the path to 
getting it done.
    The goal is to create a single record of a Veteran's health 
history, one that captures all the events from service that might 
affect a future diagnosis. It is also meant to make it easier on our 
Veterans to get care wherever they need it, without worrying whether 
healthcare providers have all the information they need.
    Once implemented, this change will better support Servicemembers as 
they transition from military service to Veteran status, and help 
ensure that pharmacies, labs and specialty care providers have a full 
picture of the Veterans they treat.
    The VA has put forward a 10-year rollout plan for electronic health 
records modernization, in part to ensure a methodical change that 
minimizes the risk of disruption to Veterans. Part of the process 
involves creating a uniform electronic record within the VA, which has 
never existed. VA clinics across the country have been allowed to 
operate their own systems for years, and the VA is working to harmonize 
that record system as part of the process.
    Early next year, the VA will roll out a unified record system with 
the Department of Defense in three locations in the Northwest--the 
first of many rollouts that will happen over the next decade. We are on 
track to making this long-delayed dream a realization.
    Achieving that goal fits in perfectly with Secretary Wilkie's 
commitment to doing a better job at customer service for our Veterans, 
which is already yielding results.
    Polls say wait times at VA medical facilities are shorter than wait 
times at private facilities, and that the VA is providing the same or 
better-quality care compared to their private counterparts.
    The secretary has stressed the need for a bottom-up organization 
that depends on our dedicated, motivated employees for success. A 2018 
Partnership for Public Service poll showed that goal is being 
achieved--the group ranked the VA as the 6th best place to work among 
large Federal agencies, after the VA was second-to-last on that list a 
year earlier.
    Improved morale at the department shows that cultural change is 
happening, and that employees have more of a stake in the outcomes we 
deliver for Veterans.
    One example of the high level of customer service we are delivering 
is the growth of Medical-Legal Partnerships, in which the VA works with 
law firms and associations, law school clinics and others to provide 
free legal advice to Veterans at the same place they get their 
healthcare.
    Our studies show that at least 5 of the top 10 unmet needs cited by 
homeless Veterans are legal in nature, not medical. Legal staff on the 
premises have helped thousands of Veterans with things like renewing a 
driver's license, debt relief, and resolving child support and custody 
issues.
    The VA is studying how this legal help is making a positive impact 
on the health of the Veterans who visit us. This innovation is not a 
formal, budgeted program, but it shows how communities around the 
country have helped to rally support for those who served their 
country. It shows the dedication of our staff, many of whom volunteer 
at these legal-medical partnerships.
    We are also doing a better job serving women Veterans. In the last 
five years, women accounted for 30 percent of the increase in Veterans 
we treat. The number of women patients we see has more than tripled 
since 2000 from 160,000 to more than 500,000.
    Today, women make up about 10 percent of all U.S. Veterans, but we 
expect that number to grow in the years ahead, and we're already 
adjusting. The VA is providing more services for women than ever, 
including primary care, gynecology and mental health care.
    Recent studies show women are getting good care when they come to 
the VA. They are more likely to get breast cancer and cervical cancer 
screening at the VA that women in private sector health care. The VA 
continues to put a special focus on helping women Veterans who are 
homeless, and women Veterans who are at risk for suicide.
    Importantly, we are taking steps to eliminate all forms of sexual 
harassment at our clinics. We're training our staff to intervene when 
they see it, part of our mission of making women comfortable when they 
come to our hospitals to get the care they've earned.
    The VA is also pursuing the broad goal of transforming how the 
organization itself operates, to ensure more efficient delivery of 
services to Veterans and the best use of taxpayer funds. Today, for 
example, the VA relies on outdated methods of running our human 
resources departments and our supply chain.
    The supply chain problem is particularly in need of an update. We 
are working vigorously to make sure that stories about VA hospital 
workers having to borrow equipment and supplies from neighboring 
hospitals are a thing of the past.
    A healthcare network as large as the VA can no longer rely on an ad 
hoc system of procurement. The department is looking to partner with 
the Department of Defense's medical supply-chain system to create a 
more efficient procurement system that is more respectful of U.S. 
taxpayers.
    Financial management and human resources modernization are a part 
of this process. The VA's financial management system for accounting 
and financial activities is more than 30 years old.
    The VA established the Financial Management Business Transformation 
Initiative to put in place a state-of-the art cloud IT solution, which 
will improve the efficiency of its financial transactions and its 
accounting procedures.
    Human resources modernization is needed to improve the VA's ability 
to track leave and vacation time, and to help recruit and retain top 
talent. Any organization the size of the VA will have several 
outstanding vacancies, and H.R. modernization will help us move more 
quickly to get the right people in the right places.
    The VA's H.R. system has been decentralized, and we believe 
centralizing it will make us more efficient, more effective, and more 
able to focus our resources on Veterans instead of internal management 
issues.
    None of these dramatic changes taking place at the VA could be 
happening without Secretary Wilkie's commitment to transparency and 
accountability.
    The secretary and I continue to make site visits to VA Medical 
Clinics around the country to ensure quality standards are being met. 
Those visits supplement ratings comparisons between VA hospitals and 
non-VA hospitals that we publish in order to keep up pressure on this 
organization to improve.
    That rating system not only rewards those VA hospitals that are 
performing well, it informs the VA on how to focus its attention on the 
hospitals that need improvement.
    The VA was the first hospital network in the country to post wait-
times, and that gives us a tool we can use to ensure Veterans are 
getting speedier access to health care around the country.
    We were also the first to publicly post opioid prescription rates, 
and we are seeing reduced prescriptions over the last several months, 
in part by considering alternative pain mitigation therapies.
    As a result of our focus on this critical issue, we have seen a 45 
percent reduction in the number of Veterans receiving opioids, and a 51 
percent drop in the number of patients on long-term opioid therapy. 
We've seen a 66 percent drop in the number of patients on high-dose 
opioid prescriptions.
    The VA has another layer of accountability that is unique among 
agencies in the Federal Government--the Office of Accountability and 
Whistleblower Protection. That office is aimed at making sure we pay 
attention to complaints that our employees bring against other 
employees or practices that may not be in the Veterans' best interest.
    The leader of that office reports directly to Secretary Wilkie, 
assuring that pervasive and sensitive personnel or management problems 
are getting attention from our Cabinet-level leader.
    Our commitment to transparency and accountability, the improved 
morale of our employees, and our readiness to take on reforms like the 
MISSION Act and challenges like Veteran suicide have turned the VA into 
a rising star in the Federal Government, and I thank you again for the 
privilege of considering my nomination to help lead the department in 
accomplishing its important mission.
                                 ______
                                 
Response to Prehearing Questions Submitted by Hon. Jon Tester to James 
 M. Byrne, Nominee to be Deputy Secretary, U.S. Department of Veterans 
                                Affairs
    Question 1. Have you discussed with Secretary Wilkie the duties he 
would like you to perform, or the role he would like you to assume, as 
the permanent Deputy Secretary?
    Response. I do not anticipate any significant change in duties if I 
am confirmed as the permanent Deputy Secretary. I meet with Secretary 
Wilkie daily.

    a. What specific projects have you managed since you took over the 
Deputy duties?
    Response. For the past nine months I have performed the chief 
operating officer duties of VA Deputy Secretary where I focused my 
efforts on providing leadership to the new governance constructs for 
our mission focused operations in VHA, VBA and NCA, large modernization 
efforts, and big initiatives such as Electronic Health Records 
Modernization (EHRM) and MISSION Act. I head the Operations/Management 
Board, Modernization Board, and program management reviews where senior 
leaders identify risks and requirements, measure progress toward 
defined metrics, and hold leaders accountable.

    b. What were the major decisions you made while performing the 
duties of the Deputy Secretary that did not turn out to have the impact 
you anticipated, and what problems did you try to address that are 
still challenges today? How do you anticipate handling them differently 
if confirmed?
    Response. Our initial response to the Colmery IT delay indicated 
that we didn't fully appreciate the impact on affected Veterans. Our 
promise to pay Veterans at the 2017 rates and our efforts to make them 
as whole as we can while system work continues is a much better and 
pragmatic answer. I will ensure the Department keeps making progress on 
meeting the full intent of the Colmery law.

    Question 2. Will you be VA's Chief Operating Officer? If so, please 
describe in detail what you understand the position of COO to be.
    Response. Yes. As discussed above the duties of the Chief Operating 
Officer are to keep the Department of Veterans Affairs fully engaged 
and supported in the delivery of a nationwide system of health care 
services, benefits programs, and national cemeteries for Veterans and 
dependents.

    Question 3. What do you see as the biggest challenges facing VA at 
this time--as to the Department as a whole, and specifically in VBA, 
VHA, NCA, and OIT?
    Response. As we discussed in our meeting, the Department as a 
whole, is under extreme pressure to implement fully and well several 
large transformations in the way we do business, simultaneously keeping 
any degradation in healthcare, administration of benefits, and 
disruption to services to an absolute minimum. Those business 
transformations are specifically:

    VHA: The VA MISSION Act provides Veterans and VA providers more 
opportunities for collaboration to ensure Veterans have access to the 
care they need. The challenges are ensuring a seamless transition from 
seven complex community care programs under Choice to one under 
MISSION.
    In the coming months, VA will be deploying a new referral and 
authorization system that will streamline information sharing between 
VA and community providers and expand its deployment of Electronic 
Claims Adjudication Management System (eCAMS), which is a tool that 
will modernize our claims processing systems and improve both 
timeliness and accuracy of payments to community providers.
    NCA: One of the greatest challenges facing NCA is modernizing the 
systems that support its mission. The Memorial Benefits Management 
System (MBMS) will upgrade various NCA systems that support burial 
operations, scheduling, headstone/marker ordering, and other important 
activities. The MBMS project is managed by VAOIT and is just one of 
their many IT challenges.
    OIT: Financial Management Business Tool (FMBT), Electronic Health 
Records Modernization (EHRM), Defense Medical Logistics Standard 
Support (DMLSS), HRSmart, are all major programs requiring more support 
and information technology to enable them. Additionally, VA is a 
growing enterprise requiring more and more in the areas of technology 
to include bandwidth, computers, storage, and software. The biggest 
challenge for OIT is garnering the resources in terms of its workforce, 
technology, and budget to meet these demands and satisfy the business 
needs of VBA, VHA, and NCA as they support the Veterans we serve.
    VBA: The biggest challenge facing VBA at this time is the 
implementation of the recent ruling of the U.S. Court of Appeals for 
the Federal Circuit regarding ``Blue Water Navy'' Veterans who served 
in the Republic of Vietnam between January 9, 1962, and May 7, 1975. 
[TDCE1]Currently, VBA is analyzing policies and developing procedures, 
identifying affected populations and their eligibility for benefits and 
healthcare, and developing a robust outreach and communications plan. 
We are currently conducting an analysis of delivery and actual benefit 
costs, which we will discuss with OMB and Congress.

    Question 4. What will be your top three priorities after assuming 
the role of Deputy Secretary?
    Response. (a) Model and ensure SECVA's tone from the top and 
leadership principles of integrity, performance, and selflessness 
continue to maintain a stabilizing effect throughout VA, (b) Execute on 
SECVA's priorities: (i) customer service, (ii) implementation of EHRM 
and MISSION Act, (iii) business transformation, and (iv) and his top 
clinical priority of reducing the number of Veteran suicides through a 
``whole of government'' approach which was established through the 
PREVENTS Executive Order. (c) Ensure continuity of operations, and 
sustainment of timely execution of business transformation efforts 
beyond this Administration.

    Question 5. If confirmed, what efforts will you undertake to make 
certain that VA is aware of, and responsive to, the needs of the 
veterans' community? Do you plan to meet regularly with veterans' 
organizations?
    Response. I value the service and guidance provided to the Veteran 
community, VA, and me personally by Veteran Service Organizations. The 
VA's awareness and response comes, in large part, as a direct result of 
listening to our Veterans. If honored to serve Veterans as the Deputy 
Secretary for the Department I will continue engaging veterans' 
organizations with robust dialog as I have done while performing the 
duties of the Deputy Secretary.
    In that time, I have experienced the need to be both proactive and 
reactive with respect to meeting with Veterans' organizations. We must 
balance between meetings that are habitual and frequent such as our 
monthly VSO breakfast and our VSO quarterly day-long sessions on the 
one hand, and meetings that are opportune and sensitive to emerging 
issues that provide opportunities to conduct meetings falling outside 
the normal habits and scheduled meetings.

    Question 6. How would you, as Deputy Secretary, work with the 
Office of Inspector General? Please describe your interactions with the 
IG's office since arriving at VA.
    Response. As VA General Counsel and more recently performing the 
duties of Deputy Secretary, I meet with the VA Inspector General 
monthly and additionally as needed. He has always made himself 
available to brief or meet with me or SECVA. I intend to continue this 
collaborative relationship for the betterment of VA, the Veterans we 
both serve, and the American taxpayers.

    Question 7. Do you agree to supply the Committee with such non-
privileged information, materials, and documents as may be requested by 
the Committee in its oversight and legislative capacities for so long 
as you serve in the position of Deputy Secretary?
    Response. Yes. VA has been responsive and cooperative to 
Congressional oversight and will continue to do so.

    Question 8. VA has always struggled to tell its success stories. 
What would you do to help the Agency tout its accomplishments?
    Response. Our Secretary and senior leaders are, with increasing 
frequency, speaking to local, regional and national online, TV, and 
print media. The department has also delivered a great number of 
opinion pieces written for a wide variety of outlets. I will join the 
Secretary in engaging media and Veterans Support Organizations to 
better inform Veterans, their families and the general public about 
what VA is doing. Finally, an important element in providing news is 
regular communication with our elected officials and their staffs.

    Question 9. What would you do to ensure that Members of Congress 
are advised in advance of problems, issues and emerging matters--
particularly when those matters are specific to the area a member 
represents?
    Response. The Secretary and I work closely with our Office of 
Congressional and Legislative Affairs (OCLA) to make timely 
notifications of all emerging issues based on the Member's state or 
district, previous interest in the issue, as well as those on the 
Committee and affected delegations regardless of their Committee 
assignments. We proactively push information including email blasts 
through gov delivery and Bloomberg. The Assistant Secretary, OCLA, his 
leadership team, and the congressional relations officers make phone 
calls to Professional Staff Members, Chiefs of Staff in the personal 
offices of Members, and legislative staff such as the Directors, 
Assistants, and Correspondents. Additionally, our legislative team is 
in constant touch with any Member of Congress who asks for Technical 
Assistance on a bill or amendment to a bill.

    Question 10. According to the Department of Housing and Urban 
Development, the fastest growing subpopulations of homeless veterans 
are female veterans and the post-9/11 generation. What will you do to 
ensure that VA homelessness programs address the needs of these 
specific groups?
    Response. The VA is committed to serving the needs of homeless sub-
populations such as female Veterans and post-9/11 Veterans through an 
array of programs and services specially designed to help homeless 
Veterans live as self-sufficiently as possible. Presently, VA's on-
going, transitional and permanent housing programs provide services as 
follows:

Grant and Per Diem (GPD) Program
    In GPD a Veteran can be served in transitional housing and 
considered homeless if fleeing, attempting to flee, domestic violence, 
dating violence, sexual assault, stalking, or other dangerous or life 
threatening conditions in the individual's or family's current housing 
situation, including where the health and safety of children are 
jeopardized, and who have no other residence and lack the resources or 
support networks to obtain other permanent housing.
Supportive Services for Veteran Families (SSVF)
    SSVF seeks to help at-risk veteran families avoid homelessness 
through family reunification and offers additional assistance to those 
fleeing domestic violence. This provision allows the full range of SSVF 
services, including financial assistance, to be offered to victims of 
domestic violence whether they are veterans or the victim of violence 
in a veteran's household. By training staff on mediation techniques, 
supported by limited financial assistance, SSVF seeks to work with 
families and friends to prevent the trauma of homelessness.
Housing and Urban Development--VA Supportive Housing (HUD-VASH) Program
    The HUD-VASH Program represents a collaborative effort between HUD 
and VA to provide subsidized permanent housing targeted primarily to 
those long-term homeless Veterans. Veterans receive rental support from 
HUD as well as case management and supportive services from VA. The 
program's goals include housing stability while promoting Veteran 
recovery and independence in the community for the Veteran and the 
Veteran's family, a unique need of female Veterans.
Health Care for Homeless Veterans (HCHV) Program
    The HCHV programs aim to reduce homelessness among Veterans by 
engaging and connecting homeless Veterans with health care and other 
needed services.
    HCHV programs provide outreach, case management and HCHV Contract 
Residential Services ensuring that chronically homeless Veterans, 
especially those with serious mental health diagnoses and/or substance 
use disorders, can be placed in VA or community-based programs that 
provide quality housing and services that meet the needs of these 
special populations.

    Question 11. In your role as Deputy Secretary, what will you do to 
improve legal services for underserved veterans and how will you 
increase partnerships with legal assistance clinics and other pro-bono 
services to address the unmet needs of veterans?
    Response. VA has a robust, partnership-driven approach to improving 
legal services for Veterans. In January 2016 we had 77 legal clinics 
co-located at VA facilities. That number has grown to more than 170 co-
located legal clinics housed at VA facilities Nation-wide, where 
Veterans can be referred for on-site legal assistance when visiting the 
VA. Five of the top ten unmet needs of homeless and at-risk Veterans 
are legal needs, such as evictions, child support issues, outstanding 
warrants, and discharge upgrades. These critical needs must be 
addressed by providing a connection to on-site legal assistance at VA 
care locations.
    As Deputy Secretary, I plan to amplify VA's role in providing 
access to legal services by establishing a legal clinic in every single 
VA Medical Center. This continues to be a goal of mine since I began 
serving Veterans at VA as General Counsel.
    In particular, I will be working with our Office of General Counsel 
and Veterans Justice Program to conduct outreach to pro bono legal 
services organizations, including legal aid, law firms, bar 
associations and law school clinics, to seek out partnerships to bring 
legal services to Veterans at VA.
    And--as I have done for the past nine months while performing the 
duties of the Deputy Secretary--I will continue to make a point of 
asking, whenever I visit a VA medical facility in any corner of our 
country, about whether the facility has a Medical-Legal Partnership on-
site for Veterans, and if not, why not.

    Question 12. VA outreach to Native American reservations and other 
highly rural areas is challenging but insufficient. How will you use 
your role as Deputy Secretary to improve and increase outreach to these 
underserved populations so that they can receive the benefits and care 
they deserve?
    Response. VA plans to increase the tribal consultation efforts as 
well as initiate collaborative work on care coordination with both the 
Indian Health Service and tribal health partners. This will serve to 
enhance the already robust outreach efforts made by agency leadership 
and staff in recent years.
    VA continues to partner with tribal governments to conduct claims 
clinics across Indian Country in order to increase access to benefits 
for Veterans. Last fiscal year, VA assisted over 1,100 Native American 
Veterans with their claims. Other outreach efforts include Tribal 
Veterans Representative trainings, tribal consultations/listening 
sessions, and senior VA/tribal leadership intergovernmental site visits 
with Veterans and service providers across Indian Country.
    In addition, we have convened a VA Outreach Council to better align 
and consolidate agency-wide outreach efforts to provide the most 
effective and efficient mechanisms to deliver VA benefits and services. 
The Council is working now to develop a VA-wide outreach operating plan 
and form a group of subject matter experts to implement recommendations 
from the VA-wide Outreach Operating Plan.
    Through the Veterans Cemetery Grant program, NCA has provided over 
$34 million in funding for Tribal Veterans Cemeteries since 2011. There 
are currently 11 Tribal Veterans Cemeteries throughout the country. Two 
more are expected to be dedicated in FY 2019 (Minnesota and North 
Dakota).
    NCA continues outreach through the Office of Tribal Government 
Relations as interest in the grant program continues to grow. In this 
FY, NCA has provided outreach to the United South Eastern Tribes and 
Yakama Nation on opportunities for new Tribal Veterans Cemeteries.
    I will ensure that VA continues to operate an extensive outreach 
program to Veterans in rural areas which, includes Native American 
reservations. One such item from our efforts will be an outreach 
campaign in the State of Alaska that our own Veterans Benefits 
Administration (VBA) will be leading and we anticipate it will be one 
of the largest of the year. This campaign will reach highly rural, 
frontier, and tribal Veterans. The campaign includes partnerships with 
several Alaska Tribal Veteran Representatives and focuses a large 
portion of VBA's attention to reach this remote population.
    In addition to the Alaska Campaign, VA is planning approximately 40 
tribal claims clinics in FY 2019. These events are held on tribal land 
and include experts from VA who assist with on-the-spot claims 
processing and providing information on VA benefits and services face-
to-face.
    Finally, during this fiscal year, VBA has travelled over 7,000 
miles to participate in over 20 outreach events targeting tribal 
Veterans. This has resulted in contact with over 700 tribal Veterans 
who may not have previously worked with VA.

    Question 13. What do you see as your role in the Department's 
effort to reduce veteran suicides? How will you use your position to 
promote veteran suicide prevention and mental health outreach?
    Response. My role within VA's suicide prevention program is to 
ensure that the suicide prevention team has the right resources and 
strong leadership support--at all levels of VA--to fully implement 
their work.
    VA's suicide prevention program is guided by the National Strategy 
to Prevent Veteran Suicide, a framework for identifying priorities, 
organizing efforts, and focusing national attention and community 
resources to prevent suicide across all sectors in which Veterans may 
interact.
    Suicide prevention is a top priority for VA, and we are developing 
key partnerships to amplify VA's efforts and ensure that Veterans have 
access to the care they need, when they need it, through VA or in the 
community.
    Additionally, as the co-chair of the Joint Executive Council (JEC), 
I am working to ease the burden of transition and minimize suicide risk 
for servicemembers moving from DOD to VA and ensuring we have sound, 
evidence-based practices in place across both agencies.

    Question 14. Please describe your role in implementing the VA 
MISSION Act.
    Response. To effectively implement the MISSION Act and address 
impacts within and reaching beyond VHA, the Secretary chartered a 
governance structure which I direct. Governance of the MISSION Act 
implementation includes an Executive Steering Committee (ESC) which I 
chair. The ESC directs efforts of the Enterprise Project Management 
Organization (EPMO) and a cross-enterprise Tiger Team. All work efforts 
report strategy and progress through these governance mechanisms.

    Question 15. As Co-Chair of the Joint Executive Council, what would 
be your priorities?
    Response. I have had the privilege of serving as the VA Joint 
Executive Committee (JEC) Co-Chair in my capacity as General Counsel 
performing the duties of the Deputy Secretary and have worked closely 
on important joint issues with my DOD counterpart. In addition to the 
quarterly JEC meetings we hold bi-weekly teleconferences to obtain the 
latest status on key issues and to remain in synch. On March 18th, 2019 
we issued the Joint Strategic Plan (JSP) for FY 2019-2021 which details 
the priorities for the JEC.
    As Co-Chair of the Joint Executive Council and in coordination with 
my DOD counterpart, my priorities are to promote rapid and agile 
decisionmaking on VA resources (e.g., human resources, information 
technology, and acquisition), minimize EHR deployment and change 
management risks, and promote interoperability through coordinated 
clinical and business workflows, data management, and technology 
solutions while ensuring patient safety.

    Question 16. How do you see the VA's leadership role in the joint 
governance of the Electronic Health Record Modernization?
    Response. VA recognizes the differences in patient population, 
scope, and capability requirements of its new EHR solution from DOD's 
MHS GENESIS. I will advocate on behalf of VA to meet its unique needs 
while ensuring there is optimal collaboration between the Departments, 
eliminating the long-standing barriers between DOD and VA. I will 
promote an effective joint decisionmaking structure that provides a 
single point of accountability. Additionally, I will promote synergies 
and efficiencies between DOD and VA while ensuring that VA's new EHR 
solution is fully interoperable within VA, with DOD, and with community 
care providers.

    Question 17. In your role as Deputy Secretary, what specifically 
will you do to ensure that VA's clinical and technical needs for the 
new Electronic Health Record are fully achieved when joint decisions 
are elevated to you?
    Response. VA planned eight national workshops to encourage 
collaboration amongst diverse end-users from clinical specialties and 
business operations to design, validate, and configure clinical and 
technical requirements of VA's EHR solution. Given the joint nature of 
this program, DOD participates at these workshops to provide context on 
its decisionmaking processes and clarification of lessons learned. The 
workshops facilitate joint decisionmaking at the lowest level. If 
necessary, decisions are raised to higher levels of joint governance 
where DOD and VA are equal partners. Where joint decisions are 
required, as Co-Chair of the Joint Executive Council, I will ensure 
that VA's EHR solution is configured to meet the Department's unique 
clinical and technical requirements and interoperability objectives, 
without expense to patient safety and care for Veterans.

    Question 18. What do you see as the role of the Interagency Program 
Office in both the implementation and continued operation of the new 
Electronic Health Record?
    Response. In its current construct, the IPO is not empowered as an 
agile, single decisionmaking or governance authority to efficiently 
adjudicate potential functional, technical, and programmatic 
interoperability issues in support of the Departments' single, seamless 
integrated EHR objectives. The FEHRM Program Office will provide a 
comprehensive, agile, and coordinated management authority to execute 
requirements necessary for a single, seamless integrated electronic 
health record and provide a single point of authority for each 
Department's EHR modernization strategies. As such, the FEHRM will 
direct each Department to execute joint decisions for technical, 
programmatic, and functional functions under its purview and provides 
oversight regarding required funding and policy as necessary.

    Question 19. Do you believe that the Electronic Health Record 
Modernization should be operated as an acquisition or clinical project?
    Response. Given the scope and complexity of VA's EHRM effort, VA 
requires both acquisition and clinical expertise to ensure a successful 
transition to its new EHR solution. VA leadership appreciates the 
complexity of a holistic, enterprise-wide clinical business 
transformation. It is important to note that the EHRM effort will not 
be successful without technical and clinical configuration to meet end-
users' needs. Through national and local workshops, VA encourages 
collaboration between business operations experts and clinical end-
users so that VA's EHR solution is designed, validated, and configured 
to promote interoperability and quality care for our Nation's Veterans.

    Question 20. As you know, current law states that the VA's Director 
of Construction and Facilities Management (CFM) reports to the Deputy 
Secretary. While the Director of CFM has a wide range of 
responsibilities in law as it relates to construction including 
planning, leasing, facility repair and maintenance, etc., in reality, 
much of that work also takes place in other parts of the Department 
including the Veterans Health Administration and the Office of 
Management who have their own reporting chains and priorities. This can 
create inefficiencies, coordination challenges, and unclear lines of 
authority. With a huge capital asset portfolio to manage, a significant 
pipeline of major, minor, non-recurring maintenance and leases and 
planning for the Asset and Infrastructure Review Commission, do you 
believe that the Department is optimally organized to effectively 
carryout the wide range of current and future capital asset 
responsibilities? Please explain why or why not. If you do not believe 
the Department is optimally organized, what are your suggestions for 
changing roles, responsibilities, and organizational structure?
    Response. As Congress directed, the VA has a new Chief Acquisition 
Officer (CAO), who is aggressively bringing program and lifecycle 
management to the Enterprise and has already led an initiative to begin 
our market assessment effort in preparation for the Asset and 
Infrastructure Review Commission. This provides a catalyst to improve 
how we develop and achieve basic asset management functions throughout 
the lifecycle. We do envision working toward an organizational 
structure that supports these good practices at the Enterprise level. 
For example, provide an innovative approach to asset management by 
streamlining the lifecycle of how we plan, deliver, and maintain 
facilities; and to ensure consistency and clarity regarding how we make 
investment decisions. I will ensure our execution and delivery is 
efficient, practical, and flexible. I will implement a formal program 
management methodology by using the same metrics and tools to manage 
risks and timely delivery. I will ensure we have clear accountability 
for facilities management that will protect those assets and their 
ability to serve veterans for years to come. Additionally, we will 
review opportunities for future organizational changes to centralize 
functions and improve efficiencies across the Enterprise. Any changes 
will be driven by evidence and leading practices and will be brought 
forward to SVAC leadership for review.
                                 ______
                                 
   Posthearing Questions Submitted by Hon. Sherrod Brown to James M. 
  Byrne, Nominee to be Deputy Secretary, U.S. Department of Veterans 
                                Affairs
    Question 1. Mr. Byrne, please provide me with a detailed breakdown 
of VA's decisionmaking process related to the National Academies 
recommendations regarding bladder cancer, hyperthyroidism, hypertension 
and Parkinson's like symptoms?
    Please provide me with VA's analysis regarding total number of 
veterans effected, and the cost associated with extending service 
connection to each specific illness.

    Question 2. Provide a breakdown of employees disciplined or 
terminated under section 202 of the VA Accountability and Whistle 
Blower Act, which affects Sec. 714. Please include by race, grade, 
discipline, and the issue that led to discipline or termination.

    Question 3. Provide a breakdown of employees disciplined or 
terminated under section 201 of the VA Accountability and Whistle 
Blower Act, which affects Sec. 713. Please include by race, discipline, 
and the issue that led to discipline or termination.

    Question 4. In the past three years, how times did a deciding 
official overturn a proposing official's personnel action 
recommendations?
    Please breakdown all of those actions to detail what the proposing 
official recommended, what the deciding official's decision was, and 
whether the employee complied.

    Question 5. Recent studies have demonstrated shorter wait times for 
primary care and certain types of specialty care appointments at VA 
facilities, and better outcomes at VA compared to private sector 
hospitals. A recent Annals of Internal Medicine study compared VHA 
hospitals with non-VHA hospitals and found that VA facilities provided 
the best care in most referral regions and that several of VHA's 
mortality safety results were markedly better than those for non-VHA 
hospitals.
    Understanding that many VA facilities provide exceptional, 
specialized care, Section 133 of the MISSION Act, stipulates that VA 
must establish competency standards for VCCP clinicians treating PTSD, 
MST, and TBI.
    <bullet> How will VA ensure that consistent, high quality and 
specialized care is being provided in these service lines in the 
community?
    <bullet> How will VA craft a program that allows veterans to go 
into the community when deemed necessary by their provider, without 
compromising or draining resources from the critical fields within VA?

    Question 6. We are about two weeks away from implementing the new 
Veteran Community Care program and there are concerns related to how 
the Department is deciding drive time. As of right now, it is based on 
low volume traffic. Please explain why low volume traffic would be the 
appropriate metric, or whether there other factors that you have taken 
into account?

    a. Additionally, please detail the training procedures that the 
Department has implemented for front line employees--who will be the 
face of the new Program to veterans and their families.
    b. Are there in person trainings, or are they conducted via 
webinars?
    c. Are the frontline employees able to provide feedback to make 
improvements?

    Question 7. What is the status of the new scheduling software-the 
Decision Support Tool (DST)? Please detail what the program currently 
does and what it will ultimately do to ensure veterans get accurate 
information about community care, so they can make an informed decision 
with their VA provider?

    Question 8. Proposed Question on Staab:

    a. I'd like to ask about how VA is implementing policy related to 
the Staab ruling, and what payments VA can make for veterans who 
receive care at non-VA emergency rooms. There are thousands of claims 
pending related to Staab, is that correct?
    b. And, as of right now, VA will only approve claims for 2016-post 
the court ruling-not back to 2010 when Congress initially passed the 
legislation, is that correct?
    c. And, will it take another act of Congress for VA to fully 
reimburse veterans for non-VA emergency room care, per Congressional 
intent?

    [Posthearing responses were not received within the 
Committee's timeframe for publication.]
                                ------                                

    [The Committee questionnaire for Presidential nominees 
follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                ------                                

    [A letter from the Office of Government Ethics follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                                ------                                

    [Letter from the nominee to the Office of General Counsel, 
U.S. Department of Veterans Affairs:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chairman Isakson. Well, thank you for being here today and 
thank you for your service already at the VA. We appreciate and 
look forward to the years--hopefully years, that is plural--we 
will have together, and continue striving to make the VA even 
better. And, I appreciate you restating your commitment to 
Secretary Wilkie, who I believe has done an excellent job in 
kind of settling down the temperature at the VA to a stable 
98.6, rather than going up to 102 every now and then. We were 
putting out too many fires and I appreciate that very much.
    How much time have you spent, or are you spending, on the 
question of suicide?
    Mr. Byrne. I will tell you, sir, personally, every day we 
touch it in some way. It is the number 1 clinical priority for 
the Department of Veterans Affairs, and Mr. Wilkie beats that 
drum every day. A $222 million budget has been allocated for 
2020, regarding suicide prevention. I will share with you what 
I have learned and what my involvement is.
    What I have learned is we have robust programs at all areas 
involving suicide prevention. At the further extreme of the 
chain we have a Veteran Crisis Line that handles 1,700 calls a 
day, 80 of which require emergency intervention to veterans in 
crisis. We have had 240 saves, if I could call them that, on VA 
properties over the last 18 months, veterans that were in the 
process of committing suicide. That is at the extreme end of 
suicide prevention.
    What we are trying to do, which I am sure you would agree, 
is back up the chain of events so that we do not have to have 
saves, that we do not have to have 80 emergency interventions 
every day. So, moving it back up the chain we have, of course, 
the President's Executive order, which directs Mr. Wilkie to 
put together a task force and a framework for rallying the 
resources of the Federal Government, local communities, 
academia, and private industry, which we are very excited about 
that, as hopefully a needle mover.
    But, within the VA, that $220 million is well spent. We 
have 400 suicide prevention coordinators throughout the 
country, amazing employees who do a number of things. We have a 
program in the VA called Reach Vet. It is an analytical program 
that takes several data points regarding the data that we have 
on veterans and identifies those veterans that are at risk. 
Those coordinators, those 400, reach out to those veterans and 
intervene, try to get them treatment and care. And, that is 
within the veterans that we can actually reach.
    The veteran coordinators are also an extensive outreach 
program. Last year they reached 200--I am sorry--they reached 
two million people, and I say people because not all of them 
are veterans. In fact, the majority of them are not veterans, 
because we want to put the word out about the treatment and 
care that the VA can provide and the communities can provide to 
veterans that are in distress. So, those community coordinators 
talk to families, they talk to community leaders, and try to 
rally them to get the support they need, whether it is in the 
VA or elsewhere.
    We have looked at it as a public health approach, instead 
of looking at it through some other paradigm, and I think that 
is the proper way to be looking at suicide prevention across 
the United States, as well as within the veteran community.
    We have also launched the #BeThere campaign, which is a 
communication campaign really for the general public, just to 
be there for each other, be there for veterans. A lot of 
factors go into committing suicide, as I am sure you are well 
aware. But, ones that are probably not in dispute are: 
loneliness, lack of connection, and hopelessness. Those are 
major contributors, in general, to the psyche.
    But, we have also found, with our specific community of 
veterans, that homelessness, legal troubles, and things along 
that line contribute as well. So, all those programs, working 
together, we are hoping are going to reduce this horrible 
tragedy across the United States. Twenty veterans a day are 
taking their lives, 14 of which are not within our system.
    So, we are taking extensive efforts. I try to touch each 
and every one of these initiatives, to some degree, and I 
assure you we talk about it every day, sir.
    Chairman Isakson. Well, the thoroughness alone of your 
answers shows the commitment that you are making to yourself, 
and I appreciate that very much because it is a work in 
progress and always will be, but as long as we are moving in 
the right direction and we are preventing suicides from 
happening and we are intervening early enough to make that 
happen, then we are doing our job, or at least doing a better 
job of it.
    You mentioned the MISSION Act. That is a critical act. How 
much have you had to say or do in the creation of the new 
access standards for the MISSION Act?
    Mr. Byrne. The specific access standards or MISSION Act at 
large?
    Chairman Isakson. Both.
    Mr. Byrne. Well, the MISSION Act access standards, there 
was a lot of deliberation. Mr. Wilkie being the great leader 
that he is, he wanted input from all different sort of corners 
and views on the access standards. You are aware of the ones we 
settled on with 30 minutes, 60 minutes, and then the wait 
times. So, I was deeply involved in that and supportive of the 
decision that was made. I thought it was a reasonable access 
standard to expand the aperture just a little bit further.
    But, to the larger question about MISSION Act, we have a 
big railroad to run. There are a lot of operations going on. 
But, I can tell you the drumbeat for MISSION Act is every day, 
and that one is loud, particularly as we spring toward the June 
6th implementation date for a good portion of the MISSION Act.
    Chairman Isakson. Yeah, that is going to be a critical 
time. That first 12 months from that date on are going to be a 
critical time to judge the progress we have made and ultimately 
get to the point where the MISSION Act is carrying out its 
mission for the veterans of the United States of America.
    Senator Moran.

           HON. JERRY MORAN, U.S. SENATOR FROM KANSAS

    Senator Moran. Mr. Chairman, thank you. Mr. Byrne, thank 
you for your presence here and your willingness to serve our 
veterans and serve our country.
    Let me outline for you a set of facts and ask for how you 
would handle this circumstance. The facts, as I know them, is 
that Senator Tester and I introduced legislation dealing with 
providing hearing aid specialists within the VA. This question 
is more than just about hearing aid specialists. It is about a 
process or a way that the VA responds to Members of Congress 
and whether or not they abide by the law as passed.
    So, in 2016 legislation was signed into law, requiring that 
the VA establish standards for hearing aid specialists and then 
hiring them into the VA. Last March, some 3\1/2\ years later, 
the Secretary was in front of this Committee and I asked--in 
fact, I reminded the Secretary that the VA has not established 
those standards, as the law requires, nor has it hired any 
hearing aid specialists. Of course, that resulted in a 
commitment from the Secretary and his team that they would be 
back in touch with us and we would receive a briefing on what 
was transpiring on this issue.
    Shortly thereafter, I received a written response that 
said, quote, ``Given that the VA has no plans to use its 
discretionary authority to hire hearing aid specialists, we are 
uncertain how such a briefing would be useful.'' So, we went 
from a law being passed, requiring that VA act in a certain 
manner to a conversation with folks at the VA in a hearing 
setting in which I would be briefed, to a ``we are not going to 
hire any specialists so there is no reason to brief you.''
    How would you handle that circumstance in your new 
position? Is there a better way of doing that, and do you 
understand how the law requires--when the law requires the VA 
to do something that it does it?
    Mr. Byrne. I am very clear on that, as a lawyer and as a 
leader within the Federal Government, sir. If your thought that 
you passed is very clear that we are required to do something, 
we certainly will. I am not sure how to answer it beyond that. 
If it is required, it is required. If it is optional, that is a 
different discussion.
    Senator Moran. Absolutely it is a different discussion. 
However, that discussion cannot occur, or will not occur 
because the VA says it is not a benefit to them to have such a 
conversation with me.
    Mr. Byrne. That is not acceptable. We will have that--I 
will give you assurances we will look into this, we will have 
that dialog, and we will comply with the law. That is not--
there is no wiggle room or gray area in that, sir.
    Senator Moran. Mr. Byrne, first of all, I know that you 
would answer you will comply with the law, and I appreciate 
that, and I am not trying to put you in an awkward position. 
But I have been on the Veterans' Committee for 23 years now and 
one of the things that I think is important is for the VA to 
implement laws as passed by Congress. I do not think it is just 
the VA. I think that is the nature of our constitutional system 
of government. On too many instances, over 23 years, I have 
seen where the VA has found ways to avoid doing what Congress 
has directed them to do.
    So, this is a much broader issue for me. I am not intending 
to--I have great regard for Secretary Wilkie, too--I am not 
trying to put you in a position between answering my question 
and being in an uncomfortable position with what he committed 
to do with me.
    But, I want to hear from you that you are committed not 
only to the law, which I would expect you to say, but that so 
many times nominees come before our Committee, and, of course--
and it is generally the Democrat side asking, ``Will you deal 
with us? Will you make certain that we are briefed and that you 
will respond to our questions?''
    I just want to, again, highlight how important it is for 
the VA to have a relationship built on trust and cooperation 
between me and my colleagues, as Members of Congress, and you 
and your colleagues at the Department of Veterans Affairs.
    Mr. Byrne. Most certainly, sir. You have my full commitment 
to that.
    Senator Moran. Thank you very much. Let me ask, in the 
short time I have left--although I do not know who we are going 
to next, Mr. Chairman--the issue of MISSION Act. Let me just 
mention a couple of things. I am hopeful that there is a field 
manual so that the VA personnel in the field who are actually 
implementing the MISSION Act know what the----
    Chairman Isakson. What it is.
    Senator Moran [continuing]. What it is, what the mission 
is. Thank you, Johnny. What the mission is. Too many times, 
again, this is an experience that I have had with the VA, the 
answers that I receive here, what I see as the policy, what I 
see as the direction is not understood or implemented by folks 
who actually are doing the work in Kansas and across the 
country.
    So, I would encourage--we have been told that there will 
be, although we have never seen a field manual, but we think 
the staff at the VA, in the field, need to understand. I always 
say this. Mostly what I do in regard to veterans issues is what 
is influenced by what I call casework, what Members of Congress 
do in trying to solve problems of their constituents. VA 
casework is a significant component of what my office does.
    In this week's report, there was veteran who called our 
office to say he needed community care. The VA told him that 
the Choice Act has expired and that the MISSION Act had not 
been implemented; therefore, there was no community care for 
him available. None of that, of course, makes any sense. We had 
community care before we had Choice, we have community care 
today, but it is how do we translate what is the law, how we 
translate what is the policy at VA Central to the folks who are 
actually dealing with the veterans on a day-to-day basis.
    So, I would encourage you to pursue making certain that 
that information, whatever it is called--a field manual of some 
kind--is clearly available and understood. I had the VISN folks 
from Kansas City, from our VISN in the office yesterday. They 
are indicating that the training is going exceptionally well 
and they think this is one of the best experiences in training 
VA employees in the field. I am very pleased to hear that and 
to see their delight, their enthusiasm for the way this is 
going. But, again, I would highlight the distinction that often 
happens between what is said here and what is said back home in 
Kansas or across the country.
    One of the other pieces of casework that appeared recently 
is this. A patient and a provider reached a conclusion that it 
was in the best interest of a veteran to go outside the VA for 
that care and treatment. That decision was overturned by the 
hospital director. And, I would again highlight what the law 
says. Once the provider and the veteran make a determination of 
what is in the best interest of the veteran, that is the 
decision. It is not something that works its way up the chain 
of command. MISSION Act will only work if there is a 
relationship that is solid and viable between the provider and 
the patient.
    So, I highlight again, and maybe that is related to my 
manual question, is even perhaps the higher level of VA 
employees need to know what the process is for making a 
determination about what is in the best interest of a veteran.
    Finally--I will try to conclude really quickly, Mr. 
Chairman--we have requested a claims processing information 
sheet. She is the same--I am beating the same drum. Our 
providers need the same kind of education and information. The 
VA has been very helpful to us. We have had the Kansas Hospital 
Association, others who have meetings. We have had VA personnel 
present to have workshops and forums about implementation of 
the MISSION Act.
    But, as I have seen many times, there are difficulties in 
the veteran knowing what he or she is entitled to, difficulty 
in knowing what the--it is difficult for the employee of the VA 
to know what he or she is able to offer. It is also confusing, 
particularly in light of the slowness in payment and the 
difficulty in being in-network with Choice.
    We need to make sure that the providers now know the 
opportunities are different and the circumstances for prompt 
payment, episode of care, all those things are different than 
it was under Choice. So, there is a lot of educating to be done 
in addition to the two categories I previously mentioned, but 
also with our hospitals, our doctors, our rural health clinics.
    Mr. Byrne, anything I said that does not make sense to you?
    Mr. Byrne. No, sir. I think you were spot on.
    Senator Moran. OK. Thank you, sir.
    Mr. Byrne. Thank you, sir.
    Senator Moran. Thank you, Mr. Chairman.
    Chairman Isakson. Thank you, Jerry, and to that end, if you 
want to think of one or two more questions you want to ask, we 
will have the time to do it. I will tell all the staff that are 
here, for Members, if you have a Member that is coming that 
wanted to ask questions, he or she needs to get here because I 
am not going to waste his time or my time or Jerry's time 
putting it off until we get somebody else here, after I have 
asked my questions and Jerry has followed up with everything he 
has to say.
    Both of his points were well taken. I want to--in the 
business that I ran for a long time, I always said, ``I do not 
know is not an answer. It is an excuse.'' I think for years in 
the VA, and a lot of government bureaucrats give the answer ``I 
do not know,'' and then they shut up. So, there is no--so 
somebody makes the call to inquire about a need they have or a 
service they need, there is not any answer or response so they 
are left hanging.
    I think that particularly hits true with medical type 
questions and decisions which are right down the line of the 
Veterans Administration. So, I want to compliment Senator Moran 
on what he said and raise the visibility of what you said, 
because what you said was very important. There is no excuse 
for not knowing the answer to a question that you are asked, 
and if you do not know the answer, the answer should be, ``I do 
not know, but I will find out,'' and you ought to take their 
number down and you ought to call them back.
    If we can just do the simple courtesies of life, that all 
of us appreciate, and do it well, it will be much more of a 
customer-oriented, service-oriented type of an organization and 
not one that is as frustrating as it sometimes can be.
    I think Secretary Wilkie is bringing that type of attitude 
to the VA. I have seen that happen, and I have had people tell 
me the same thing. So, I just wanted to follow up on that point 
and say that is the most--the most important thing we can do, 
starting the 6th of June, when this is implemented in the 
MISSION Act is to say--``I do not know'' is not the answer. ``I 
do not know, but I will find out'' is the answer. Then, finding 
out is the next thing you do, and getting that information to 
the person is the next thing. If we do that we will raise the 
confidence of the people who use the VA immensely, because it 
will end a real problem we have had, and it will also help us 
to find out where we have got real problems we need to cure.
    So, I want to thank the gentleman from Kansas for bringing 
that issue up. Mission one for us is the MISSION Act: getting 
it implemented and making it work. We are going to have some 
things fall through the cracks. We cannot have that many 
people, that many moving parts and not have them, but at least 
we can get on top of them, solve them, and make them better.
    Senator Blackburn.

       HON. MARSHA BLACKBURN, U.S. SENATOR FROM TENNESSEE

    Senator Blackburn. Thank you, Mr. Chairman.
    Chairman Isakson. Five minutes for questions.
    Senator Blackburn. I appreciate that so very much, and 
appreciate that you are here and that you took the time to 
visit with us in advance.
    I know you understand my concerns about the supply chain 
and modernizing that. So, for the record, if you will talk just 
a moment about what you are going to do to modernize that 
procurement and supply chain and to mitigate some of the risk, 
fraud, abuse in that, I think that would be important, as well 
as--and it ties into implementation of the MISSION Act. We have 
discussed this: the control measures and the efforts on 
modernizing the IT structure, whether it is dealing with supply 
chain or with records.
    Mr. Byrne. Thank you, ma'am, for that question. There are a 
lot of modernization efforts going forward that we discussed 
earlier and I appreciate your focused question on the supply 
chain and the risk that is apparent in the system right now. I 
will give you an example that Mr. Wilkie has presented several 
times, and I think I might have mentioned it in your office.
    We have upwards of four million credit card transactions 
for some of the things we need across the enterprise. That--I 
will try not to use too dramatic of a word, but that is just 
ridiculous, right? Accountability on that is challenging, at 
best. The economy of scales and the costs are horrible. So, Mr. 
Wilkie, very quickly, had an appreciation of what the Defense 
Logistics Agency brings to the table, not a perfect system, but 
probably--not probably--a much better system than we have. And, 
there are a lot of reasons why we should partner up with them.
    So, we have some agreements and some test pilots right now, 
working with them, but that is the intent, is that we are going 
to tuck up under the Defense Logistics Agency for the majority 
of our equipment, material, and things that we need.
    Senator Blackburn. Right. I would just say, also, my hope 
is as we had discussed, that you will seek guidance and seek 
some best practices from some of the hospital management groups 
and practice management groups who employ far fewer people to 
buy a much broader base of supplies at a much lower cost, yet 
higher quality.
    Mr. Byrne. Yes, ma'am.
    Senator Blackburn. We would hope that.
    Let me go to--you all may have discussed the lawsuit that 
we found out about, that has been issued, in which your name 
appears. In the circumstances referenced in the lawsuit you 
were to determine the actions of consequence as the deciding 
official of a complicated investigation. Correct?
    Mr. Byrne. Correct.
    Senator Blackburn. OK. Considering your professional acumen 
and all of the information you had at the time, do you feel you 
made a fair and just decision with the utmost integrity, 
relating to the circumstances?
    Mr. Byrne. Yes, ma'am, I do.
    Senator Blackburn. OK. Looking back, is there any reason to 
believe you may have violated any Department policy procedure 
or even the spirit of the accountability and Whistleblower's 
Protection Act?
    Mr. Byrne. No, ma'am.
    Senator Blackburn. You are comfortable with your decision.
    Mr. Byrne. Very comfortable. Yes, ma'am.
    Senator Blackburn. With that I yield back.
    Chairman Isakson. Thank you very much, Senator Blackburn. 
We are going to go to Senator Blumenthal, then Senator 
Sullivan, then Senator Tillis, in that order, unless we get 
another alternating party member in between. We try and 
alternate Republican and Democrat while we are going in order 
of appearance. It kind of reminds me of when my drill sergeant 
in basic training told us all to fall in, in alphabetical 
order, by height. That kept us going for 3 days before we 
figured out how to do that.
    Senator Blumenthal.

                   HON. RICHARD BLUMENTHAL, 
                 U.S. SENATOR FROM CONNECTICUT

    Senator Blumenthal. Thanks, Mr. Chairman, and thank you, 
Mr. Byrne, for your service to our Nation. Thank you for being 
here, and thanks for stopping by my office to talk about your 
nomination, about some of the very pressing issues that I know 
you have been addressing, even as you have been acting in this 
position.
    I am very concerned that, to date, the VA has failed to 
compensate and care for veterans who were exposed to burn pits. 
It seems like we are repeating the same mistake that we did on 
Agent Orange, on toxic substances, and other kinds of poisons. 
In the modern battlefield we have failed to address the health 
problems of veterans who suffer from the painful and 
debilitating effects of the battlefield.
    And, I would like to just mention one of my constituents, 
Army veteran Peter Antioho. He served in Vietnam--I am sorry, 
in Afghanistan in 2012. While serving in Afghanistan, Mr. 
Antioho would routinely walk by open burn pits riddled with 
toxic waste and chemicals. Five years after he served he was 
diagnosed with terminal brain cancer at the age of 31.
    He is now fighting for compensation, literally fighting for 
compensation for his illness. He has been rejected for that 
compensation. With the help of my staff, the Connecticut 
Veterans Legal Center, and The American Legion he has submitted 
medical records as well as statements from his doctors and 
commanders to prove a link between his cancer and the exposure 
to burn pits.
    I would like your commitment, if you are confirmed, to 
personally look into his situation, but also to put the VA on a 
path to support veterans who have been exposed to these toxic 
substances in burn pits and other spaces around the modern 
battlefield.
    Mr. Byrne. Yes, sir.
    Senator Blumenthal. Thank you. Speaking of Agent Orange and 
the Blue Water Navy, as you well know, and we discussed it in 
my office, this Secretary recommended that the VA not appeal 
the recent Federal Circuit Court ruling, a 9-2 ruling in 
January, that Blue Water Navy veterans are eligible for 
benefits to treat their illnesses. The Department of Justice is 
now reviewing that recommendation. Do you know what is stalling 
the Department of Justice reaching a decision?
    Mr. Byrne. No, sir, I do not. They have a 30-day extension 
that I think ends within the next couple of days.
    Senator Blumenthal. Do you expect within the next couple of 
days there will be a decision?
    Mr. Byrne. Yes, sir, and I do not believe they are going to 
ask for an additional extension.
    Senator Blumenthal. I hope you are right. And, I understand 
that the Office of Management and Budget is in agreement with 
your recommendation. Is that correct?
    Mr. Byrne. Yes, sir.
    Senator Blumenthal. Let me turn to another topic that, 
again, you and I discussed--capital investment necessary for 
our health care facilities, West Haven being a prime example. 
As we noted and we agreed, the West Haven facility is sadly 
obsolete and out of date in terms of its structural adequacy--
no other word for it. It is inadequate by today's modern 
standards, to provide health care. Despite the valiant efforts 
of a very dedicated and highly skilled professional staff--
doctors, nurses, volunteers--at the VA facility in West Haven, 
that structural defects, or set of failings, is gravely 
imperiling the health care provided in surgical facilities and 
a variety of other areas.
    So, I would like your commitment that you will undertake a 
thorough review of that facility, put it on a priority list, 
and enable all of our VA facilities to be brought into the 21st 
century.
    Mr. Byrne. Certainly. The review we can conduct, sir, but I 
am hesitant to make a promise to you, in front of this body, 
under oath, that I will ensure that West Haven, in particular, 
is a priority. I hope you could appreciate that.
    Senator Blumenthal. Well, at least I would like your 
assurance that it will be put on a list, that it will be under 
consideration, that it will be given----
    Mr. Byrne. Certainly.
    Senator Blumenthal [continuing]. The attention that it 
deserves.
    Mr. Byrne. Most certainly, sir.
    Senator Blumenthal. As far as the sterilization facility, I 
would like your commitment that you will report to me any 
delays in the current schedule to have the temporary trailer 
facility operational by no later than this fall, and to put the 
permanent surgical sterilization processing facility on an 
expedited track.
    Mr. Byrne. Yes, sir. That is happening. That is a patient 
safety issue. Thank you for putting a light on that for us.
    Senator Blumenthal. Thank you. Again, thank you for your 
service.
    Mr. Byrne. Thank you, sir.
    Chairman Isakson. Senator Sullivan.

          HON. DAN SULLIVAN, U.S. SENATOR FROM ALASKA

    Senator Sullivan. Thank you, Mr. Chairman, and, Mr. Byrne, 
good to see you again. Thanks for your service already, not 
only to the VA but to our country, the military, and the 
Marines.
    It is great to see your family here. It is really nice. It 
is not always easy, having daughters myself, to watch your dad 
go through these confirmation hearings and get a little roughed 
up, but it is a family effort, so we are really glad and 
appreciative of your family being here, because these kind of 
public service jobs are--you know, they are all in for 
everybody. I want to thank you and your family and your kids 
for----
    Mr. Byrne. Sir, for the record, this is a fraction of my 
family.
    Senator Sullivan. That is what I heard.
    Mr. Byrne. We have been very blessed.
    Senator Sullivan. That is impressive. That is great; 
actually. It is wonderful.
    We had a good conversation a couple of days ago, especially 
around the idea of giving States like Alaska the flexibility 
and autonomy to manage its VA resources in a manner that best 
serves the veterans and the communities, while mindful of the 
taxpayer dollars. You had cited the--what I view as kind of the 
innovative--and I think you view it--innovative example of the 
North Chicago Federal Health Care Center (FHCC) as a leading 
example with the Great Lakes DOD facilities and the VA 
facilities, which bridges kind of the local VA, the DOD, and 
integrates all of that into a single Federal health facility 
with a combined mission.
    A system like this is designed to improve access, 
readiness, quality, cost effectiveness, and health care 
delivery for both veterans and active duty members, plus their 
beneficiaries. Do you agree with that characterization of that 
FHCC model there in North Chicago?
    Mr. Byrne. Yes, sir. I think it is a wonderful, wonderful 
pilot program that hopefully will get some traction. In our 
discussion the other day you had proposed Elmendorf, I think--
--
    Senator Sullivan. Yeah.
    Mr. Byrne [continuing]. As one of those facilities, and it 
makes perfect sense.
    Senator Sullivan. Well, good. We would like--and I am 
confident you are going to get confirmed--but as you know, 
Alaska, despite having more vets per capita than any State in 
the country, actually has no full-service VA medical facility, 
which I think surprises a lot of people. As you mentioned, we 
do have this opportunity at JBER, Joint Base Elmendorf-
Richardson, for a full-service Federal health care center, 
similar to North Chicago.
    If confirmed, can you commit to me to work with my office, 
this Committee, and the VA on collectively looking at how to 
move forward a proposal like that?
    Mr. Byrne. Yes, sir. Certainly.
    Senator Sullivan. Let me ask another kind of related 
question. We actually have, I think, a really good-news story 
in Alaska. When I got here in the Senate a little over 4 years 
ago, when it was kind of a meltdown as we talked about the 
Choice Act essentially destroyed the system in Alaska. It was a 
total disaster.
    We had many CBOCs that had not had physicians for years, 
literally years, and with some of the great work the Chairman 
and others have done and a highly-motivated local leadership, 
Dr. Ballard, who runs our VA in Alaska, we are getting more 
physicians into CBOCs across the State, and, at the same time, 
there has been requests, and I think the headquarters has 
looked upon these favorably, to--with more doctors, more 
veterans, looking at space expansion requests for these key 
Alaska CBOCs throughout the State.
    Unfortunately, the ability to expedite or even kind of 
juggle these, it looks like they are kind of being lined up 
sequentially, because of, I think, essentially one person 
within the VISN contracting office works on them. If confirmed, 
can you work with me, Mr. Byrne, and again, this Committee, on 
looking at ways to help expedite that? The fact that we have 
kind of pent-up demand, now that we are getting physicians 
there to help expedite, or at least look at these different 
requests from the Alaska VA simultaneous would be very helpful 
in trying to move these forward. Can I get your commitment on 
doing that?
    Mr. Byrne. Yes, sir.
    Senator Sullivan. Let me ask one final question that is 
more general. The first bill that I cosponsored in the Senate 
was the Clay Hunt Suicide Prevention Act, which was named after 
a young Marine who unfortunately took his own life after a 
couple, you know, tours in Afghanistan, I believe, as a sniper. 
It was a very bipartisan bill. But, we are still having huge 
challenges with our veteran suicide issue. What more can the VA 
be doing, in your view, and what more can this body be doing? A 
number of us have cosponsored another bill that builds on the 
Clay Hunt Suicide Prevention Act, but how can we really get our 
arms around this, and what should we all be doing collectively?
    Mr. Byrne. Thank you for that question, sir. Earlier in the 
hearing I gave kind of a long answer, which I would be glad to 
deliver again. But, this body has been very helpful, 
particularly the $222 million that they have allocated for us 
specifically for suicide prevention, and all the programs that 
go with that, from the end of the chain--we are trying to work 
our way back up the chain--the end of the chain being the 
crisis line, the Veteran Crisis Line, intervention in hospitals 
of veterans that are trying to take their own lives, back to 
programs as in the veteran care coordinator--I mean, sorry--the 
suicide prevention coordinators, the 400 that we have within 
the VA. We are trying to move things back in using that $222 
million.
    There is not--we can always do more. So, any creative idea, 
any thoughts are welcome. The President just signed an 
Executive order to try to harness the resources of the 
Executive branch and then local communities and academia. I 
mean, he opened the aperture wide open. Mr. Wilkie is leading 
that effort.
    But, we are not winning right now. I mean, it is the ground 
truth. It is a reality. We are still at 20 a day, which is not 
moving, though it needs to. There are so many factors that are 
involved in it that I do not fully understand or appreciate; I 
am not sure anybody does, which is part of the challenge.
    We, the experts, say there are 25 factors--the loneliness, 
financial instability, maybe homelessness, maybe substance 
dependency. There are 25 of those factors. So, what I hope the 
VA is doing is they are looking at those factors and trying to 
address those as well, as far up the chain of events as 
possible so that we do not have to do saves with the call 
center, we do not have to do saves like the 240 we had over the 
last 18 months on our properties and in our facilities.
    So, your question was what can you do to help. I think you 
all have been very helpful, and we are very appreciative of the 
resources. If was as simple as saying, ``Hey, we need some more 
money so that we can have more public service announcements,'' 
or ``have more police officers patrolling our campuses'' or 
``have Tom Hanks do more PSAs,'' we would do that. We do not 
think that is necessarily the answer. It is a comprehensive--
and there is a culture in our country right now that is, I 
think, different than it was 20 or 30 years ago, and I probably 
should not go down that path necessarily.
    But, the stigma with mental health is, I think, something 
that is kind of troubling and concerning, and if you could 
shine a light on that in your talks and in your speeches around 
the country, I think that would be tremendously helpful. Our 
leadership position, maybe explaining that the continuum of 
mental health is similar to the continuum of physical health.
    There are days--a person in this body, probably not--he 
left early from the hearing. Senator Tester is not physically 
at his peak today. Is that fair to say, sir? Is that--is that 
maybe protected health information? He is not at his peak 
today, like some of us may not be at our peak today physically. 
We talked about that. I am feeling a little punk today, a 
little under the weather. I have got a sprained ankle. I have 
got a chronic pain; my back hurts. We do not do that in the 
mental health arena because there is a stigma that surrounds 
it. Yet, they are both very much the same, right? Some of these 
issues are chronic, and some of these are just episodal.
    If we can get the dialog out there to say, ``If you have a 
dip in your mental health, there is treatment and care, 
medication that can help you get back on path.'' If you all 
would be a bully pulpit for that I think you would be 
tremendously helpful. I plan on doing that in the talks that I 
hope to be giving over the next however long I am in this 
position. Add that to sort of my spiel that I give when I go 
out on the street.
    Senator Sullivan. Great. Thank you. Thank you, Mr. 
Chairman.
    Chairman Isakson. That was a great question and also a 
terrific answer. I have been in public life a long time, 41 
years, and the two biggest problems or challenges we face are 
suicide in veterans and homelessness in America, which both of 
those are mental health issues. We abandoned mental health 
coverage for a while and that is why we have got a lot of 
homelessness. The same thing is somewhat true with the 
accessibility of the counseling for our veterans. So, your 
priority is exactly correct and that is where we need to spend 
our time.
    I think--am I right?--that we go to Senator Brown and then 
Senator Tillis. Am I right. OK.
    Senator Brown.

           HON. SHERROD BROWN, U.S. SENATOR FROM OHIO

    Senator Brown. Thank you, Mr. Chairman.
    Mr. Byrne, thank you for joining us and thanks for the 
discussion last week in my office about Agent Orange and burn 
pits and the Blue Water Navy; you know, those toxic exposure 
issues. I want to thank Senator Isakson for his comments on 
veteran suicide. Just recently a veteran in Cleveland Heights 
VA, from Cleveland Heights, took his own life, which has just 
happened far too often.
    I want to follow up on a point that Senator Tester raised. 
The Office of the Inspector General and the invaluable 
independence of that office. During our meeting, your comments 
about one of its upcoming reports gave me some pause. We 
recently learned about your role adjudicating the discipline of 
an OGC employee found by OIG of violating VA's anti-nepotism 
statutes. According to the VA, ``The anti-nepotism statutes and 
regulations prohibit a public official from appointing, 
employing, promoting, or advancing a relative or advocating 
such an action in favor of the relative.'' You know that.
    It is my understanding during your meeting with staff 
yesterday that you said you can only find on the very narrow 
issue of whether this individual improperly shared VA 
sensitivity--that sensitive data not nepotism, conflict of 
interest, or false statements, because of actions taken by the 
proposing official.
    The VA, however, sent a document, to just the majority, 
mind you, and that cannot happen in this Committee. 
Fortunately, the Chairman shared it with the minority. That is 
your responsibility. We do not do things that way, pick 
partisan channels in this Committee. Maybe in your previous 
life or maybe other places they did, but our Committee does not 
operate that way, so do not do that again.
    Anyway, the Department sent the document to the majority 
that OIG found a conflict of interest. The Office of 
Accountability and Whistleblower Protection recommended conduct 
unbecoming related to the conflict of interest and so did the 
proposing official. Reporting from the document, ``Actions with 
respect to his wife's hiring created the appearance of legal 
and ethical impropriety.'' You, however, did not sustain that 
recommendation, based on information that the accused sent to 
you, the deciding official.
    I will withhold my final judgment of the specific outcome 
while I review, and my staff reviews additional documents, but 
this is not how we intended the accountability bill to be 
implemented. These conflict of interest cases are exactly what 
we should be going after, not low-wage employees. The deputy 
needs to show unimpeachable judgment. Undercutting the 
independent IG is just simply wrong.
    Let me shift to something else and ask you a couple of 
questions. I am the Ranking Member of the Senate Banking 
Committee, and have been following the issues related to VA 
mortgage lenders closely. In a rulemaking last year, the VA 
stated that some VA mortgage lenders' aggressive refinance 
practices were essentially, quote ``subprime lending under a 
new name,'' unquote. Yet VA did not begin a rulemaking to 
protect veterans until Congress mandated it. I continue to hear 
that VA's new rule is insufficient. I would add the CFPB 
(Consumer Financial Protection Bureau) has not been helpful in 
this. They do not advocate for veterans, this new CFPB. It just 
means that much more we need you to.
    The VA Inspector General is also concerned. Just last week, 
the VA Inspector General and the U.S. Attorney for the Eastern 
District of New York reportedly subpoenaed loan files as it 
began investigating VA lenders.
    My question is this: If confirmed, what will you do to 
protect veteran homeowners from aggressive and misleading 
lending practices, and is the VA actively working with CFPB to 
address financial harm to veterans? I ask those two questions 
in the context of this new CFPB director has shown no interest 
in supporting veterans, no interest in the military loan--in 
the Military Lending Act, all the things that the former CFPB 
seemed to care about. This one does not. The responsibility is 
really on the VA because of that, so your thoughts on that, 
sir.
    Mr. Byrne. Thank you for the question, sir; and ``I do not 
know, but I will find out the answer'' regarding the CFPB. I 
can tell you that it is very much on the senior leadership's 
radar screen about some of the aggressive refinancing practices 
on our veterans. I believe you said it accurately, that we are 
in the rulemaking process that I do know is not popular in 
certain segments of our country that do this.
    So, I believe you said that right, that we have not 
completed the rulemaking process and maybe we disagree on 
whether it is aggressive enough or not. But, it should be 
implemented very soon; and, I will get back to you with an 
answer on that.
    But, I agree. I agree. That refinancing puts these veterans 
further and further in debt, and that is not the intent of 
refinancing. That is not the intent of the VA-backed loans. So, 
I will--I will assure you I will look into this and get some 
resolution on it. It is an important matter.
    Senator Brown. Thank you. And, I will reiterate that there 
are three people at this table right now who are on the Senate 
Banking Committee. We all recognize that the CFPB has shown--
and I do not want to speak for Mr. Tillis, but at least I 
recognize the CFPB has shown not nearly the level of interest 
in protecting veterans from the kind of predatory practices of 
non-bank, shady oftentimes lenders. Sometimes bank lenders too, 
but especially non-bank lenders.
    You know, outside of every military base in the country 
there are all kinds of opportunities, if you will, for veterans 
to be ``served''--I use that term in quotation marks--by all 
these lenders. We need, you know, in a very vulnerable time in 
these families' lives, when their husband or wife, or sister or 
brother, or father or mother, whatever, is overseas, 
especially, we need a government standing with those veterans 
to protect them against these practices.
    I again say the CFPB has been less than aggressive. It just 
means we need you that much more to weigh in. If you think you 
cannot act in certain circumstances call us and we will work to 
get the CFPB to act, or we will act. So, that is my really only 
admonition to you.
    Mr. Byrne. Thank you, sir.
    Senator Brown. Thank you, Mr. Chairman.
    Chairman Isakson. At the risk of putting off Mr. Tillis any 
longer I want to say one thing about what you just said. This 
is one thing I know a lot about because I did it in my private 
life, and that is real estate sales and VA loans, et cetera. 
One of the biggest mistakes everybody makes is to think the VA 
makes loans. They do not make loans. They insure loans. They 
have an underwriting procedure for the insurance of those 
loans, but the private sector makes those loans.
    The biggest case of flipping I ever saw was a few years 
when VA lawyers were closing a VA refinance, when the VA caught 
them flipping refinances over and over and over again to get a 
$150 fee, but the only way they could get it was to get the 
veteran to refinance the loans. So, their motivation for the 
veteran to get a refinanced loan was for them to get a $150 
fee. I am not going to name anybody, but to the credit of a 
large bank in this country, they solved their problem. They 
fixed it and a lot of people got their money back, which I 
appreciate.
    Yet, there have continued to be those in the mortgage 
business who are originators and creators of mortgages, that 
flip them. In fact, the nature of the business of a mortgage is 
you make it as fast as you can, you underwrite it as well as 
you can, and then you sell it as fast as you can. The people 
that make the money are the people who service, over the long 
term--they collect the payment, they send the payment in, et 
cetera--and the person who originates it, they get a 1 percent 
fee at the beginning and that is it.
    Since I do know a little bit about it--enough to get in 
trouble anyway--about the subject, I would be glad to work with 
you and work with the VA to sit down and take a look at the 
current practices on VA lending, because I got involved in it 4 
or 5 years ago and we stopped some stuff that was--where people 
were abusing the rules in the interest of a provider service, 
i.e., a closing attorney, not in the interest of the veteran, 
and we ought to never let that happen.
    So, I am sorry for interrupting you.
    Mr. Tillis.

       HON. THOM TILLIS, U.S. SENATOR FROM NORTH CAROLINA

    Senator Tillis. To put one more note in that regard, that 
is why we--you know, there are probably not a whole lot of 
things that Senator Warren and I share in common, in terms of 
banking regulations, but this happened to be something that we 
took up, Mr. Chair, as a bill for some of the churn that was 
going on. I appreciate Ginnie Mae working with us to actually 
put something forth that we did on a bipartisan basis.
    Look, military families and veterans need access to 
capital, but it always has to be beneficial to them, so we will 
work with you all as well. We are always looking for other 
opportunities to make sure we are taking care of military 
families and veterans and veterans' families.
    I want to go back. I think you made a very important point 
on suicide prevention. I think it does go back to awareness and 
removing the stigma. I really do think that members need to 
think about what that means. Because, oftentimes, I have gone 
into meetings, specifically on mental health, where people want 
to remove the stigma. Then, you hear them whispering about a 
challenge that they may have in their own family. Well, you are 
perpetuating the stigma when you do that. A mental health 
condition is no--it is a different physiological condition. We 
need to talk about it or we are a part of the problem that has 
this unacceptable rate, not only among veterans, but society as 
a whole. So, I appreciate you calling on us to do our part. I 
think more of us need to do it, and I, for one, will.
    One thing, which relates to the electronic health record. I 
know that you are the senior accountable officer for that 
implementation. I think that is something that we should be 
looking at. I know that you are moving through the systematic 
implementation and I want to get a brief update on that.
    I think now is also the time to engage the DOD to find what 
kind of information, what kind of markers could we potentially 
identify over a servicemembers active status that could be 
helpful to identifying, almost predicting possible mental 
health challenges before the man or woman even knows it exists. 
I think we need to find a way to get the DOD and the VA to work 
together so that as you go through the implementation we make 
sure that we are passing along that kind of information.
    I think it could be instructive to the transition process. 
I believe one of the reasons why we are seeing the rate of 
suicide that we do is we do not really understand the condition 
of the veteran from the time that they move from active or 
reserve status into veteran status. I think that we should 
focus on that as one of the first things that we should be able 
to exploit and leverage by having common and compatible 
electronic health record system.
    Now, I would like a general update on the implementation. 
By the way, I will be supporting your nomination. You are going 
to get confirmed. Congratulations in advance. Family, 
congratulations.
    So, with that I just really want an update, unless you give 
me a really bad answer on the electronic health record 
implementation. Directionally, that is where I am going, but a 
quick update, Mr. Byrne.
    Mr. Byrne. Sure, quickly can I take 20 seconds on 
reachback? You were not here earlier when I gave a little talk 
on an analytical program that we have called Reach Vet that 
does exactly what you are talking about with the analytics, of 
data points, of records that we have in the VA system. If we 
could reach back into DOD to get those indicators before they 
come over during transition you are exactly right; we can catch 
them better.
    Senator Tillis. Well, count on me to help you get that 
done.
    Mr. Byrne. Yes, sir. And, I am putting some of that on me. 
I serve as the co-chair with my DOD colleague over at the 
Department of Defense on the Joint Executive Council, and those 
are the exact types of issues that we actually talk about. So, 
I promise you that I will carry that back to the right bodies 
that can actually hopefully execute on that.
    Electronic health records modernization (EHRM), a $16 
billion effort over almost 10 years. IOC, the beginning of the 
second quarter of next year, in the three sites in Washington 
State. We have done a ground-up training, a lot of lessons 
learned from DOD, and we have a great leader in charge, a 
gentleman named John Windom who came over from the Department 
of Defense, a retired Navy captain.
    Senator Tillis. Right guy for the job.
    Mr. Byrne. Exactly. Glad you agree, sir. We are on track to 
get not only executed at the IOC here next year, but we are 
planning ahead, right. I mean, this is not a do three then let 
us regroup, and then do three more sites. We are laying the 
foundation to roll this out across the country.
    And, simultaneous with the rolling out of the Cerner 
project, we made the decision to go ahead and roll out the 
scheduling tool in a dual track across the country. So, it will 
be done--scheduling capacity will be done all across the VA 
well in advance of the rollout of the actual Cerner product.
    So, I am really feeling pretty optimistic about that. As 
you know, there is a lot of coverage around that. There are IT 
modernization efforts that have to go on contemporaneously with 
that, around with that, and then the VHA training of the work 
flows and the providers. I think we are doing a really good job 
as far as having these workshops and working--and when I said 
ground up, I mean, we are talking to the practitioners, like 
how are you going to use this? What can we do to make this 
easier for you to use to provide that treatment to the 
veterans? And, I think that is why we are going to have a 
little more success than DOD has had.
    Senator Tillis. What about this general--I do not see 
anybody else here, Mr. Chair, so if I could just ask one more 
question?
    How about just general key performance indicators on the 
project. Are we tracking well on date and cost?
    Mr. Byrne. Yes, sir, we are. As a matter of fact, we are 
under-running, and we have gotten some queries--I do not want 
to say pushback--but some queries about under-running in the 
funding. So, I have an answer for that which I think is 
acceptable and proper, plus I think you would like to hear. 
One, John Windom is being very fiscally responsible; and two, 
he is purchasing, for example, equipment ``just in time,'' I 
think is the phrase. Instead of buying technology now, having 
it sit in a warehouse for 6 months or 5 months, he is waiting 
to buy that later on.
    So, we are on track financially, we are on track with the 
schedule. We have identified limiting features. This is 
something that I pounded pretty hard at some meetings recently. 
We have some challenges or some concerns with communications 
closets. I know a little bit more about communication closets 
that I ever probably wanted to know. But, that is a limiting 
feature for us to be able to role out EHRM across the country. 
And, we do not yet know what these communication closets look 
like in our various facilities, which is a limiting feature.
    So, I kind of digressed on that but I am pretty bullish and 
pretty optimistic about where we are with EHRM, yet I do not 
want to make any promises that we are going to accelerate it. 
Ten years seems like a long time for me. We are setting the 
foundation and the governance to have it be executed, but when 
we roll out the IOC I think we are going to get a much clearer 
picture of our ability to accelerate this rollout across the 
country. Ten years is an incredibly long time.
    Senator Tillis. Well, thank you. One thing I would like to 
do, just outside of the Committee setting, but I would like to 
get your commitment to have--since I have had a background in 
large-scale systems integration work in my prior job, I would 
very much appreciate some briefings on a regular basis with the 
project team, just so I can see your dashboard and the 
implementation as you hit certain milestones. Our office will 
be in touch, so that we can have that meeting.
    And, as I mentioned to you, when you came into the office, 
I would like to do that on you all's turf too, so you do not 
have to come over here. I would like to come visit the project 
teams and see it in action.
    Mr. Byrne. Certainly. If you are interested in going to any 
of our IOC sites or the second-phase sites, we welcome that as 
well.
    Senator Tillis. The last thing I would leave you with is I 
just want to thank the VISN 6 leadership. They are doing a 
great job. They have done a really good job of us meeting, 
either through conference call or in person on a regular basis. 
I really appreciate them taking the time to do that. We are 
going to continue to do it in North Carolina. Thank you.
    Chairman Isakson. Senator Boozman.

         HON. JOHN BOOZMAN, U.S. SENATOR FROM ARKANSAS

    Senator Boozman. Thank you, Mr. Chairman, as always.
    Thank you for your leadership and great work. We appreciate 
you being here, and I appreciate your leadership and getting to 
know you and working with you. Also, your service in the Marine 
Corps--once a Marine, always a Marine. That is a good thing. 
Then, again, your willingness to serve. You are a talented guy. 
You could be doing lots of different things. You and others 
that are willing to do these jobs--they can be very, very 
difficult jobs--we really do appreciate that.
    As you know, I am chair of the MILCON/VA Subcommittee on 
Appropriations, so something that I felt very strongly is the 
IG work. We were able, last year, to develop a bill that had 
$192 million in it for the IG for VA, $20 million over the 
President's budget. We did that because the VA is a huge 
organization. It has such a broad portfolio--it is into 
everything. Sadly, at different times in its history has had, 
you know, some troubles. So, it is important that the oversight 
is there, and I know you know that because you used to be an IG 
earlier in your career, overseeing Iraq reconstruction, which 
was another area that had some problems.
    So, in the office we had a good visit and I think that, you 
know, I understand that you share that concept of how important 
these things are. But, I would like to ask a couple of 
question, just to get it straight, so that Congress can get 
your commitment that as Deputy Secretary of the VA you will use 
the IG as a tool for managing and maintaining the Department to 
meet the high standards of professionalism and integrity?
    Mr. Byrne. Certainly.
    Senator Boozman. Good. Very good. Thank you.
    As the Deputy Secretary of the VA, if you find that an IG 
report was improperly handled, is incomplete, or lacks 
credibility, how do you plan to handle that situation in the 
future? And, what steps will you take to ensure the reliability 
of IG reports?
    Mr. Byrne. Sir, I have a good working relationship and an 
open line of communication with the IG, Mr. Mike Missal. So, 
any issues or challenges that I have had or will have, I would 
go directly to him. He has been very, very responsive, so I 
will continue to do that, sir.
    Senator Boozman. Good. That is so important; I know you 
will. Certainly, we will encourage that in collaboration. That 
is just how it has to be.
    Congress has been clear about our intent that VA hold all 
employees accountable for misconduct, regardless of their 
seniority in the organization. Employees at the VA need to be 
confident that their decisionmakers will address misconduct 
professionally and without bias or undue influence. How will 
you use your role as Deputy Secretary to ensure that there is 
confidence in how senior leaders hold employees accountable?
    Mr. Byrne. Well, Mr. Wilkie has set the tone from the top, 
right? Perform with excellence, perform with integrity. So, 
from my position that is the message that I hopefully exhibit 
and demonstrate. But, I do have operational oversight, 
leadership responsibility of OAWP, HR, OGR, legal department, 
and I say that as sort of performing the duties of the deputy 
now. And, I will continue to do that.
    I think I have been very clear that that is incredibly 
important in a bureaucracy such as ours, that there is 
integrity and trust in the system, trust in leadership, and 
that needs to start with the role models at the top, period. I 
do not have any issues holding people accountable. I take that 
very seriously because these are real people with real futures, 
and I look at the totality of things. But, we have moved people 
on from senior leadership positions who were not serving the 
veterans as well as we thought they should be and what the 
American people expect us to do.
    So, I hope I have a pretty good track record in that areas. 
At least that is what I believe you are hearing.
    Senator Boozman. No, no. Very much so. And, again, as you 
say, Secretary Wilkie, yourself have set that tone, and we do 
appreciate that. It is so, so very important.
    We look forward to continuing to serve with you in the 
future. We do appreciate all of your hard work and all of us 
working together to try to make sure that our veterans are 
taken care of in the way that was promised. You know, it is 
easy to forget that these are earned benefits versus, you know, 
just gimmes.
    So, again, thank you very much. It is good to see your 
family here. I have got three daughters. I understand all about 
you gals. So, take care.
    Mr. Byrne. Thank you, sir.
    Chairman Isakson. Thank you, Senator Boozman.
    Mr. Byrne, thank you very much for your time and all you 
have done for your country already. We appreciate your service 
very much.
    We will conclude this hearing. We will leave the record 
open for 5 days for any questions from Members or any responses 
that you want to leave with the Committee in writing. Is there 
any further business to come before the Committee? If there is 
none we stand adjourned.
    [Whereupon, at 11:16 a.m., the Committee was adjourned.]
      

                                  [all]
</pre></body></html>
